<html>
<title> - STEM IN ACTION: TRANSFERRING KNOWLEDGE FROM THE WORKPLACE TO THE CLASSROOM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                 STEM IN ACTION: TRANSFERRING KNOWLEDGE
                  FROM THE WORKPLACE TO THE CLASSROOM

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                       THURSDAY, NOVEMBER 3, 2011

                               __________

                           Serial No. 112-50

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
70-974                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2a4d5a456a495f595e424f465a0449454704">[email&#160;protected]</a>  

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               GABRIELLE GIFFORDS, Arizona
W. TODD AKIN, Missouri               DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              MARCIA L. FUDGE, Ohio
MICHAEL T. McCAUL, Texas             BEN R. LUJAN, New Mexico
PAUL C. BROUN, Georgia               PAUL D. TONKO, New York
SANDY ADAMS, Florida                 JERRY McNERNEY, California
BENJAMIN QUAYLE, Arizona             JOHN P. SARBANES, Maryland
CHARLES J. ``CHUCK'' FLEISCHMANN,    TERRI A. SEWELL, Alabama
    Tennessee                        FREDERICA S. WILSON, Florida
E. SCOTT RIGELL, Virginia            HANSEN CLARKE, Michigan
STEVEN M. PALAZZO, Mississippi
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

             Subcommittee on Research and Science Education

                     HON. MO BROOKS, Alabama, Chair
ROSCOE G. BARTLETT, Maryland         DANIEL LIPINSKI, Illinois
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
STEVEN M. PALAZZO, Mississippi       PAUL D. TONKO, New York
ANDY HARRIS, Maryland                JOHN P. SARBANES, Maryland
RANDY HULTGREN, Illinois             TERRI A. SEWELL, Alabama
LARRY BUCSHON, Indiana               EDDIE BERNICE JOHNSON, Texas
DAN BENISHEK, Michigan
RALPH M. HALL, Texas


                            C O N T E N T S

                       Thursday, November 3, 2011

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Mo Brooks, Chairman, Subcommittee on 
  Research and Science Education, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................     8
    Written Statement............................................     9

Statement by Representative Daniel Lipinski, Ranking Minority 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     9
    Written Statement............................................    10

                               Witnesses:

Dr. Michael Beeth, Professor, Department of Curriculum and 
  Instruction, University of Wisconsin Oshkosh
    Oral Statement...............................................    12
    Written Statement............................................    14

Mrs. Christine Sutton, Secondary Math Teacher, Virgil I. Grissom 
  High School, Huntsville City Schools, Alabama
    Oral Statement...............................................    18
    Written Statement............................................    19

Ms. Robin Willner, Vice President, Global Community Initiatives, 
  Corporate Citizenship and Corporate Affairs, IBM Corporation
    Oral Statement...............................................    22
    Written Statement............................................    24

Mr. Jason Morrella, President, Robotics Education and Competition 
  Foundation
    Oral Statement...............................................    27
    Written Statement............................................    30

Dr. Jennifer Jones, Principal Clinical Scientist, Abbott Vascular
    Oral Statement...............................................    35
    Written Statement............................................    37

Discussion
  ...............................................................    40

              Appendix: Answers to Post-Hearing Questions

Dr. Michael Beeth, Professor, Department of Curriculum and 
  Instruction, University of Wisconsin Oshkosh...................    58

Mrs. Christine Sutton, Secondary Math Teacher, Virgil I. Grissom 
  High School, Huntsville City Schools, Alabama..................    60

Ms. Robin Willner, Vice President, Global Community Initiatives, 
  Corporate Citizenship and Corporate Affairs, IBM Corporation...    62

Mr. Jason Morrella, President, Robotics Education and Competition 
  Foundation.....................................................    63

Dr. Jennifer Jones, Principal Clinical Scientist, Abbott Vascular    65


                            STEM IN ACTION:
                      TRANSFERRING KNOWLEDGE FROM
                     THE WORKPLACE TO THE CLASSROOM

                              ----------                              


                       THURSDAY, NOVEMBER 3, 2011

                  House of Representatives,
    Subcommittee on Research and Science Education,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Mo Brooks 
[Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                     U.S. HOUSE OF REPRESENTATIVES

              STEM in Action: Transferring Knowledge from

                     the Workplace to the Classroom

                       thursday, november 3, 2011
                           10:00 am-12:00 pm
                   2318 rayburn house office building

Purpose

    On Thursday, November 3, 2011, the Subcommittee on Research and 
Science Education held the fourth in a series of hearings to highlight 
Science, Technology, Engineering, and Math (STEM) education activities 
across the Nation, their role in inspiring and educating future 
generations, and their contribution to our future economic prosperity. 
The purpose of this hearing was to examine approaches and programs that 
encourage and assist STEM professionals looking to transition their 
knowledge and skills from industry to a second career in teaching or to 
give back to classroom education as a mentor.

Witnesses

    <bullet>  Dr. Michael Beeth, Professor, Department of Curriculum 
and Instruction, University of Wisconsin Oshkosh.

    <bullet>  Mrs. Christine Sutton, Secondary Math Teacher, Virgil I. 
Grissom High School, Huntsville City Schools, Alabama.

    <bullet>  Ms. Robin Willner, Vice President, Global Community 
Initiatives, Corporate Citizenship & Corporate Affairs, IBM 
Corporation.

    <bullet>  Mr. Jason Morrella, President, Robotics Education and 
Competition Foundation.

    <bullet>  Dr. Jennifer Jones, Principal Clinical Scientist, Abbott 
Vascular.

Overview

    In the United States, student mastery of STEM subjects is essential 
to thrive in the 21st century economy. As other nations continue to 
gain ground in preparing their students in these critical fields, the 
U.S. must continue to explore a variety of ways to inspire future 
generations.
    The 2007 Rising Above the Gathering Storm report called for an 
increased emphasis on recruiting, educating, training, and increasing 
the skills of K-12 STEM education teachers and increasing the pipeline 
of American students who are prepared to enter college and graduate 
with a degree in STEM.
    The U.S. workforce is in a state of flux due to shifting employment 
demographics and continues to be aggravated by the current economic 
situation and the upcoming retirements of the baby-boomer generation. 
Many STEM industry professionals may be looking to make a career 
transition that could put them in a classroom by incorporating their 
professional experience with teaching or by mentoring students or 
teachers in and out of the classroom.
    Programs working to connect STEM industry professionals to the 
classroom and students, including alternative certification 
opportunities and employer-driven mentor and volunteer opportunities, 
help to solidify the connection between class work and real-life needs 
for students.
    The connection between STEM industry professionals and students, in 
the classroom and through mentoring and volunteer opportunities, 
illustrates for students the opportunities and rewards associated with 
STEM careers and may help to prepare and inspire them to pursue STEM 
educational opportunities and careers.

Background

    STEM industry professionals offer a unique perspective to students 
due to a combination of hands-on experience and content knowledge. 
Working to increase the involvement of these professionals both inside 
the classroom and through outside activities, as teachers, mentors or 
volunteers is of interest to many concerned with the need to strengthen 
STEM education in the U.S.

STEM Education Funding in the Federal Government

    A consensus exists that improving STEM education throughout the 
Nation is a necessary condition for preserving our capacity for 
innovation and discovery and for ensuring U.S. economic strength and 
competitiveness in the international marketplace of the 21st century. 
The National Academies Rising Above the Gathering Storm report placed 
major emphasis on the need to improve STEM education and made its top 
priority increasing the number of highly qualified STEM teachers. This 
recommendation was embraced by the House Science, Space, and Technology 
Committee following the issuance of the report and was included in the 
2007 America COMPETES Act, primarily through the Robert Noyce Teacher 
Scholarship Program. The 2010 America COMPETES Reauthorization Act 
continues this priority.
    Beyond activities authorized in America COMPETES, President Obama 
has called for a new effort to prepare 100,000 science, technology, 
engineering, and math (STEM) teachers with strong teaching skills and 
deep content knowledge over the next decade. As a component of 
achieving this goal, the fiscal year (FY 12) Budget Request proposes an 
investment of $100 million through the Department of Education and the 
National Science Foundation (NSF) to prepare effective STEM teachers 
for classrooms across America. This proposal also responds to a 
recommendation by the President's Council of Advisors on Science and 
Technology (PCAST) to prepare and inspire America's students in 
science, technology, engineering, and mathematics.
    With specific regard to K-12 STEM education funding beyond what has 
already been identified, the FY 12 Budget Request calls for $206 
million for the Department of Education's proposed Effective Teaching 
and Learning in STEM program; a $60 million (28 percent) increase for 
NASA's K-12 education programs; $300 million for an ``Investing in 
Innovation'' program (expansion of a Department of Education American 
Reinvestment and Recovery Act program); and $185 million for a new 
Presidential Teaching Fellowship program.
    In total, the FY 12 Budget Request devotes $3.4 billion to STEM 
education programs across the Federal Government. \1\ The 2010 America 
COMPETES Reauthorization Act called for the creation of a National 
Science Technology Council (NSTC) Committee on STEM Education to 
coordinate federal STEM investments. The first-year tasks of the 
Committee are to create an inventory of federal STEM education 
activities and develop a five-year strategic federal STEM education 
plan. The inventory, as well as a similar Government Accountability 
Office (GAO) survey requested by the Committee on Education and 
Workforce, is currently underway and results are expected in early 
2012.
---------------------------------------------------------------------------
    \1\  White House Office of Science and Technology Policy, 
Innovation, Education, and Infrastructure: Science, Technology, STEM 
Education, and 21st Century Infrastructure in the 2012 Budget, p. 2.
---------------------------------------------------------------------------
    In the 112th Congress, the Science, Space, and Technology Committee 
will continue to hold oversight hearings and briefings on STEM 
education activities across the Federal Government and will closely 
monitor the scope and findings of both the NSTC and the GAO federal 
STEM education inventories.

The Robert Noyce Teacher Scholarship Program

    The National Science Foundation's Robert Noyce Teacher Scholarship 
(Noyce) Program is one of the cornerstones of the Federal Government's 
efforts to increase the number of highly qualified STEM teachers. 
Originally authorized in the 2002 National Science Foundation 
Authorization Act (P.L. 107-368), expanded under the 2007 America 
COMPETES Act, and reauthorized in the America COMPETES Reauthorization 
Act of 2010, the Noyce program provides funding to institutions of 
higher education to provide scholarships, fellowships, stipends, and 
programmatic support to recruit and prepare STEM majors and 
professionals to become K-12 teachers. In FY 11 Noyce programs were 
funded at nearly $55 million dollars. The FY 12 budget request is $45 
million, a $10 million reduction. \2\
---------------------------------------------------------------------------
    \2\  FY 2012 NSF Budget Request to Congress, p. EHR-19.
---------------------------------------------------------------------------
    The Noyce program encourages talented STEM students and 
professionals to pursue teaching careers in elementary and secondary 
schools in an effort to respond to the critical need for K-12 STEM 
teachers. One goal of the program is to recruit individuals with strong 
STEM backgrounds who might otherwise not have considered a career in K-
12 teaching. The program works to increase the number of K-12 teachers 
with strong STEM content knowledge who teach in high-need school 
districts. The Noyce program consists of two different tracks: the 
Robert Noyce Teacher Scholarship track, and the NSF Teaching Fellowship 
and Master Teaching Fellowship track.
    The Teacher Scholarship track provides funding to colleges and 
universities to offer scholarships and programs for undergraduate 
students majoring in STEM disciplines and stipends for STEM 
professionals seeking to become teachers. Teacher Scholarship projects 
include partnerships with school districts, recruitment strategies, and 
activities to enable scholarship recipients to become successful 
elementary or secondary math and science teachers. Teacher Scholarship 
grantees administer scholarships and stipends; offer academic courses 
and clinical teaching experiences to prepare scholarship recipients to 
teach in elementary and secondary schools; and offer programs during 
and after program matriculation to help scholarship recipients become 
better math and science teachers and exchange ideas with others in the 
field.
    Through the Teacher Scholarship program, scholarships of at least 
$10,000 per year are available to juniors and seniors majoring in a 
STEM discipline. Scholarships may be awarded for up to three years to 
include a fifth year of study in a post-baccalaureate teacher-
credentialing program. Stipends of at least $10,000 are available for a 
maximum of one year for STEM professionals who hold a baccalaureate, 
master's, or doctoral degree in science, mathematics, or engineering 
and enroll in a teacher certification program. Teacher Scholarship 
projects include program development and enhancement as well as 
programmatic support for students. Program components are designed to 
attract students into teaching, provide high-quality preparation for 
their success as teachers, and to retain them in the teaching 
workforce. These activities may include early field experiences, 
academic courses in content and pedagogy, and professional development 
and mentoring support for new teachers.
    The NSF Teaching Fellowship track supports STEM professionals 
(recent STEM graduates and STEM career-changers) who enroll as NSF 
Teaching Fellows in master's degree programs leading to teacher 
certification, and the development of exemplary math and science 
teachers to become NSF Master Teaching Fellows. The Teaching Fellowship 
track requires cost-sharing, through which grantees provide between 30 
and 50 percent of the amount of the Noyce grant from non-federal 
sources, depending on the total award amount.
    The Teaching Fellowship track provides stipends of at least $10,000 
and programmatic support to STEM professionals who enroll in a one-year 
master's degree program leading to teacher certification or licensing. 
Institutions provide academic courses, activities, and clinical 
teaching experiences for the NSF Teaching Fellows. Projects provide 
mentoring and professional development while the Teaching Fellows are 
fulfilling their four-year teaching requirement in a high-need school 
district. The Fellows receive a salary supplement of at least $10,000 
per year while they are fulfilling the four-year teaching commitment. 
Through NSF Master Teaching Fellowships, institutions offer academic 
courses, professional development, and leadership training to prepare 
participants to become Master Teachers in elementary and secondary 
schools. Master teaching fellows receive salary supplements of at least 
$10,000 for each year of the five-year teaching requirement. \3\
---------------------------------------------------------------------------
    \3\  http://www.aps.org/units/fed/newsletters/spring2009/
prival.cfm.

---------------------------------------------------------------------------
Alternative Teacher Certification

    Pursuing teaching as a second career may be challenging for current 
STEM industry professionals who must consider numerous issues from 
monetary concerns to certification and licensure requirements. 
Alternative certification routes have become more promising for these 
transitioning professionals as they may provide more opportunities to 
have previous work experience count toward licensure, certification, or 
degree requirements.
    According to the Secretary's Seventh Annual Report on Teacher 
Quality, ``In 2007, alternative route programs to teacher certification 
were approved in 48 States, Puerto Rico and the Northern Mariana 
Islands, an increase of two since 2006 (Rhode Island and Northern 
Mariana Islands).'' \4\ Many STEM industry professionals already have a 
bachelor's degree in a core competency, but are missing the required 
teacher-education courses for certification. Alternative teacher 
certification requirements differ by State but often include an 
accelerated post-baccalaureate program, a student-teaching component, 
and the successful completion of certain tests or interviews. In some 
cities and States, one can pursue a provisional teacher license that 
allows second-career teachers to begin teaching immediately. After 
completing required education courses and working under the supervision 
of experienced educators for one or two years, those who initially 
received provisional licenses can receive a full teaching credential. 
Other States offer programs that allow college graduates who do not 
meet licensure requirements to take only those courses they lack in 
order to become licensed. Additionally, teacher shortages in some areas 
and subject matters have prompted many States to offer temporary 
emergency licenses to prospective teachers who hold bachelor's degrees. 
\5\
---------------------------------------------------------------------------
    \4\  https://title2.ed.gov/TitleIIReport10<INF>-</INF>508.pdf, p. 
5.
    \5\  http://www.alleducationschools.com/education-careers/article/
teaching-as-a-second-career.
---------------------------------------------------------------------------
    Alternative routes to teacher certification are impacting the way 
teachers are educated and brought into the profession. It is estimated 
that more than 200,000 persons have been licensed through these 
programs. \6\ Not only have more States instituted legislation for 
alternative teacher certification, but institutions of higher education 
have initiated their own alternative programs for the preparation of 
teachers leading to a license to teach. ``California, New Jersey, and 
Texas have been developing and aggressively utilizing alternative 
routes for licensing teachers since the mid-1980s.'' \7\
---------------------------------------------------------------------------
    \6\  http://www.teach-now.org/overview.html.
    \7\  http://www.teach-now.org/overview.html.
---------------------------------------------------------------------------
    Alternative certification programs often involve collaboration 
between States and schools offering certification programs. For 
example, in Virginia, the Career Switcher Alternative Route to 
Licensure Program was established in 2000 by the General Assembly. 
Initially for military personnel interested in becoming teachers, the 
program has been expanded to include individuals in other professions 
interested in pursuing a career in education. Institutions of higher 
education, school divisions, and private organizations can develop 
proposals to act as program providers for the VA Career Switcher 
Program. Program providers are responsible for recruiting, screening, 
and selecting applicants. Providers must also document that individuals 
accepted into Career Switcher Programs meet all Board of Education 
requirements. Virginia institutions of higher education serving as 
program providers include George Mason University, Old Dominion 
University, Regent University, Shenandoah University, and Virginia 
Community College System. \8\
---------------------------------------------------------------------------
    \8\  http://www.doe.virginia.gov/teaching/
educator<INF>-</INF>preparation/career<INF>-</INF>switcher/index.shtml.
---------------------------------------------------------------------------
    In Wisconsin, the Alternative Careers in Teaching (act!) program is 
an individually tailored, alternative pathway to initial Wisconsin 
licensure as a secondary mathematics or science teacher. The program is 
customized to adult career-changers looking for an alternative path to 
licensure. Participants must hold a bachelor's degree from a regionally 
accredited institution and must also have five or more years of work 
experience. The act! program is a cooperative program between the 
University of Wisconsin Colleges and the University of Wisconsin 
Oshkosh. \9\
---------------------------------------------------------------------------
    \9\  http://www.uwfox.uwc.edu/academics/act2teach/.

---------------------------------------------------------------------------
STEM Industry: Teachers, Mentors, and Volunteers

    The looming retirements of the baby-boomer generation and current 
unemployment rates have exacerbated a U.S. workforce in flux for many 
generations. According to a 2007 report from the U.S. Department of 
Labor, ``Industries and firms dependent upon a strong science and math 
workforce pipeline have launched a variety of programs that target K-12 
students and undergraduate and graduate students in STEM fields.'' \10\ 
STEM industry professionals looking to give back to their communities 
or to make a career transition to the classroom by incorporating their 
professional experience with teaching or by mentoring students or 
teachers in and out of the classroom are encouraged by those 
organizations launching programs to support STEM education. These 
programs often provide the venue for industry professionals to help 
students in their communities connect to STEM fields.
---------------------------------------------------------------------------
    \10\  http://www.doleta.gov/Youth<INF>-</INF>services/pdf/
STEM<INF>-</INF>Report<INF>-</INF>4%2007.pdf, p. 6.
---------------------------------------------------------------------------
    Beginning a second career as a STEM teacher is a noble endeavor, 
but not the only way to give back to a community. A number of STEM 
industry professionals prefer to use their capabilities as volunteers 
or mentors to help inspire the next generation of STEM professionals. 
Programs that encourage employees to volunteer in the classroom and 
through on-line mechanisms, or those that highlight industry work 
through community events are vital to encouraging students to follow 
STEM academic and career paths. Teaching, mentoring, and volunteering 
help to illustrate to students the opportunities and rewards associated 
with STEM careers and may help to prepare and inspire them to pursue 
STEM educational opportunities and careers.
    The IBM Corporation: IBM promotes community engagement and 
corporate service programs on specific societal issues, including 
education. IBM utilizes its technology and talent to solve problems 
through direct action and collaboration. Since 2006, IBM has enabled 
its employees to become fully accredited teachers in their local 
communities by supporting mature workers who are interested in a second 
career in teaching. IBM's Transition to Teaching program is an effort 
to help address the shortage of math and science teachers by leveraging 
the expertise and backgrounds of IBM's employees. The Transition to 
Teaching initiative helps underwrite the costs while employees pursue 
the education and training experiences required for teacher 
certification--combining traditional coursework, online courses, and 
practice teaching. The participants can choose from the existing array 
of traditional education and alternative certification programs. IBM 
also provides up to one year leave of absence to facilitate student 
teaching experience in order to meet State certification requirements 
and prepare them with quality experiences. Employees are eligible for a 
total of $15,000 for tuition reimbursement and leave-of-absence 
stipend. \11\
---------------------------------------------------------------------------
    \11\  IBM Transition to Teaching one-pager.
---------------------------------------------------------------------------
    The Robotics Education and Competition (REC) Foundation: The 
Robotics Education and Competition (REC) Foundation is a non-profit 
organization, supporting robotics and technology events and programs 
that aim to inspire and motivate students to advance in STEM education. 
The REC Foundation also provides program support and workshops focused 
on technology and professional development for educators. It works to 
connect students, mentors, and schools in every community to a variety 
of technology-based programs. Students and mentors work inside and out 
of the classroom through competitive events, workshops, camps, or 
conferences. In addition, the Foundation provides those programs with 
services, solutions, and a community that allows them to foster the 
technical and interpersonal skills necessary for students to succeed. 
It is committed to promoting technology and related student and 
professional advancement so that one day these programs become 
accessible to all students and all schools in all communities. \12\
---------------------------------------------------------------------------
    \12\  http://robotevents.com/.
---------------------------------------------------------------------------
    Abbott: Abbott is a health care company working on products from 
nutritional products and laboratory diagnostics to medical devices and 
pharmaceutical therapies. \13\ Established in 1951, the Abbott Fund is 
a philanthropic organization working in science education, engaging 
students, families, and teachers in scientific exploration in out-of-
school informal settings; encouraging young people to be more 
proficient in science and attract more scientists to the field; and 
building strong partnerships that are systemic, replicable, and 
sustainable for multiple years and multiple locations. \14\ Through the 
Abbott Family Science program, students and families are actively 
engaged in learning about science and innovation through experiments 
and related activities led by Abbott scientists and volunteers. 
Children aged six to 10, parents, and teachers participate in evenings 
packed with exciting, hands-on experiments in fundamental science. 
Family Science nights are held in China, Germany, Ireland, Singapore, 
South Korea and the U.K., as well as California, Illinois, 
Massachusetts, Ohio, Texas, and Puerto Rico. \15\
---------------------------------------------------------------------------
    \13\  http://www.abbott.com/global/url/content/en<INF>-</INF>US/
10:10/general<INF>-</INF>content/
General<INF>-</INF>Content<INF>-</INF>00004.htm.
    \14\  http://www.abbottfund.org/about/science.
    \15\  http://abbottfund.org/project/11/22/Making-Science-Fun-for-
the-Whole-Family.
---------------------------------------------------------------------------
    Chairman Brooks. The Subcommittee on Research and Science 
Education will come to order.
    Good morning. We are almost a little bit tardy but I see it 
is 10 o'clock. We are having fun chatting with the witnesses, 
but we do have work to do.
    Welcome to today's hearing entitled ``STEM in Action: 
Transferring Knowledge from the Workplace to the Classroom.'' 
The purpose of today's hearing is to examine approaches and 
programs that encourage and assist STEM professionals looking 
to transition their knowledge and skills from industry to a 
second career in teaching, or to get back to classroom 
education as a mentor. I now recognize myself for five minutes 
for an opening statement.
    In today's hearing, we will discuss how career 
professionals in science, technology, engineering, and math are 
taking their knowledge, skills, and talents to the classroom as 
both teachers and mentors to help inspire and educate our next 
generation of scientists, engineers and mathematicians.
    This hearing is the fourth in a series of STEM in Action 
hearings that the Science, Space, and Technology Committee has 
held during the 112th Congress, and the first for the Research 
and Science Education Subcommittee.
    There are a variety of existing programs, both public and 
private, that focus on encouraging and preparing K-12 students 
for STEM degrees and careers and helping new and experienced 
teachers better teach STEM subjects.
    Today's hearing focuses on public and private endeavors 
that help STEM career professionals who have no traditional 
training or teaching in their backgrounds transition their 
industry experience, knowledge, and skills to the classroom. 
The transition for these STEM career professionals often 
entails a complete career switch or mentoring students and/or 
teachers.
    The ability to educate and inspire is a quality that all 
teachers should possess. Individuals who have spent time in a 
STEM profession bring a unique perspective to the classroom and 
can make a great contribution to our STEM education efforts. At 
the same time, industry experience, knowledge and skills alone 
do not necessarily make a good teacher. Good teaching requires 
an additional and special set of knowledge and skills.
    I look forward to hearing from our witnesses today about 
issues and challenges relating to the transition from 
successful STEM career professional to successful STEM teacher 
and about how STEM career professionals help teach and inspire 
our Nation's children, the backbone and future of our economic 
and competitive success.
    And on a personal note, I would add that my wife, Martha, 
took the same path. She was a certified public accountant. We 
had kids. She retired from the profession. She went back to 
UAH, University of Alabama in Huntsville, obtained a math 
degree, and I am going to boast on her for a second because she 
was the math student of the year and then taught mathematics, 
having been a professional previously.
    [The prepared statement of Mr. Brooks follows:]

         Prepared Statement of Subcommittee Chairman Mo Brooks

    Good morning, and welcome to each of our witnesses. In today's 
hearing, we will discuss how career professionals in science, 
technology, engineering, and math are taking their knowledge, skills, 
and talents to the classroom as both teachers and mentors to help 
inspire and educate our next generation of scientists, engineers, and 
mathematicians.
    This hearing is the fourth in a series of STEM in Action hearings 
that the Science, Space, and Technology Committee has held during the 
112th Congress, and the first for the Research & Science Education 
Subcommittee.
    There is a variety of existing programs, both public and private, 
that focus on encouraging and preparing K-12 students for STEM degrees 
and careers and helping new and experienced teachers better teach STEM 
subjects.
    Today's hearing focuses on public and private endeavors that help 
STEM career professionals who have no traditional training or teaching 
in their backgrounds transition their industry experience, knowledge, 
and skills to the classroom. The transition for these STEM career 
professionals often entails a complete career switch or mentoring 
students and/or teachers.
    The ability to educate and inspire is a quality that all teachers 
should possess. Individuals who have spent time in a STEM profession 
bring a unique perspective to the classroom and can make a great 
contribution to our STEM education efforts. At the same time, industry 
experience, knowledge, and skills alone do not necessarily make a good 
teacher. Good teaching requires an additional and special set of 
knowledge and skills.
    I look forward to hearing from our witnesses today about issues and 
challenges relating to the transition from successful STEM career 
professional to successful STEM teacher and about how STEM career 
professionals help teach and inspire our Nation's children, the 
backbone and future of our economic and competitive success.

    Chairman Brooks. So with that, I would like to recognize 
Mr. Lipinski for his opening statement.
    Mr. Lipinski. Thank you, Chairman Brooks, for holding this 
hearing. We both share the fact that our wives are apparently 
very smart mathematicians, so it is always very helpful, and we 
both share a strong interest in improving STEM education in our 
country and know how important it is for the future of our 
country.
    Today, only one-third of the undergraduate degrees earned 
by American students are in a STEM field, compared with 63 
percent in Japan and 53 percent in China. In a world where 
nearly everything we do is built on math, science, and 
technology, these numbers should concern us for America's 
future. Students with these skill sets are not only needed to 
change our world with the next vaccine, energy source, or 
communications system, but also to help drive a thriving 
American economy that produces good-paying jobs here at home. 
And STEM jobs do pay well. According to a Wall Street Journal 
survey, majors in engineering, computer science, and accounting 
outpace their peers in marketing, psychology, or communications 
by $10,000 to $20,000 year in their first job out of college.
    I know that many of our country's leading companies are 
deeply aware of our workforce challenges. We are going to hear 
from IBM and Abbott today about some of their initiatives to 
improve STEM education in this country, and many others, 
especially defense-sector companies like Boeing and Honeywell, 
have similar programs. I am especially looking forward to 
hearing from Dr. Jones about how the Abbott education and 
outreach programs in both Chicago and at her facility in 
California are enabling their scientists and engineers to work 
directly with students, teachers, and parents.
    Underlying many of these initiatives, as well as a number 
of federal programs, is the idea that it is easiest to attract 
students to STEM careers when they are inspired by the best and 
brightest teachers, mentors, and professionals. This is 
especially true at the K-12 level, where researchers can play a 
unique role in improving STEM education by volunteering, 
serving as mentors to students, and by becoming STEM teachers 
themselves.
    We know that the success of students is highly dependent on 
the quality and effectiveness of their teachers. In fact, the 
number one recommendation of the National Academies' Rising 
Above the Gathering Storm report was to train more highly 
qualified STEM teachers and to enhance the content knowledge of 
current ones. Professional scientists and engineers already 
possess strong content knowledge, so they have great potential 
to be great STEM teachers if given the opportunity to develop 
the skills needed in the classroom. I am interested in hearing 
about some of the challenges associated with this transition.
    One teacher training program that I am particularly proud 
of is the Robert Noyce Teacher Scholarship program at the 
National Science Foundation. In 2007, in the America COMPETES 
Act, I helped then-Chairman Gordon improve this program by 
adding NSF teaching fellowships for STEM professionals who want 
to complete their master's in education, get certified, and 
transition into a career in teaching. I look forward to hearing 
more from Dr. Beeth about the teacher preparation program he is 
running at the University of Wisconsin with Noyce funding from 
the NSF.
    While we do not have any of the federal agencies 
represented on the panel today, I want to take this opportunity 
to highlight the important role of the federal STEM workforce 
in inspiring the next generation to pursue careers in the STEM 
fields. Historically, NASA has been the most visible example, 
helping to create an entire generation of scientists and 
engineers. We hear testimony from such individuals all the 
time, and I am sure that Chairman Brooks has many of them in 
his own district. I find that today's students are equally 
inspired and energized by the scientific and technological 
challenges we face in energy, environment, and other fields 
today. There is great value in connecting talented federal 
scientists and engineers from the Department of Energy, NOAA, 
and other mission agencies with STEM students who have a 
passion for these issues.
    Today's hearing provides us with an opportunity to hear 
more about how STEM professionals with expertise and valuable 
real-life experiences are helping students better understand 
STEM concepts and learn about career opportunities. This is 
vital, not just for the companies involved, but for the future 
competitiveness of our Nation.
    I want to thank the witnesses for being here this morning 
and I look forward to your testimony. Thank you.
    [The prepared statement of Mr. Lipinski follows:]

          Prepared Statement of Ranking Member Daniel Lipinski

    Thank you, Chairman Brooks, for holding this hearing; as you know, 
working to improve STEM education has always been a priority for me. 
Today, only one-third of the undergraduate degrees earned by American 
students are in a STEM field, compared with 63 percent in Japan and 53 
percent in China. In a world where nearly everything we do is built on 
math, science, and technology, these numbers should concern us greatly 
for America's future. Students with these skill sets are not only 
needed to change our world with the next vaccine, energy source, or 
communications system, but also to help drive a thriving American 
economy that produces good-paying jobs here at home. And STEM jobs do 
pay well. According to a Wall Street Journal survey, majors in 
engineering, computer science, and accounting outpace their peers in 
marketing, psychology, or communication by $10,000 to $20,000 a year in 
their first job out of college.
    I know that many of our country's leading companies are deeply 
aware of our workforce challenges. We're going to hear from IBM and 
Abbott today about some of their initiatives to improve STEM education 
in this country, and many others--especially defense sector companies 
like Boeing and Honeywell--have similar programs. I am especially 
looking forward to hearing from Dr. Jones about how the Abbott 
education and outreach programs in both Chicago and at her facility in 
California are enabling their scientists and engineers to work directly 
with students, teachers, and parents.
    We know that the success of students is highly dependent on the 
quality and effectiveness of their teachers. In fact, the number one 
recommendation of the National Academies' Rising Above the Gathering 
Storm report was to train more highly qualified STEM teachers and to 
enhance the content knowledge of current ones. Professional scientists 
and engineers already possess strong content knowledge, so they have 
potential to be great STEM teachers if given the opportunity to develop 
the skills needed in the classroom. I'm interested in hearing about 
some of the challenges associated with this transition.
    One teacher training program that I'm particularly proud of is the 
Robert Noyce Teacher Scholarship program at the National Science 
Foundation. In 2007, in the America COMPETES Act, I helped then-
Chairman Gordon improve this program by adding NSF Teaching Fellowships 
for STEM professionals who want to complete the master's in education, 
get certified, and transition into a career in teaching. I look forward 
to hearing more from Dr. Beeth today about the teacher preparation 
program he is running at the Univeristy of Wisconsin with Noyce funding 
from NSF.
    While we do not have any of the federal agencies represented on the 
panel today, I want to take this opportunity to highlight the important 
role of the federal STEM workforce in inspiring the next generation to 
pursue careers in the STEM fields. Historically, NASA has been the most 
visible example, helping to create an entire generation of scientists 
and engineers. We hear testimony from such individuals all the time, 
and I'm sure that Chairman Brooks has many of them in his own district. 
I find that today's students are equally inspired and energized by the 
scientific and technological challenges we face in energy and the 
environment. There is great value in connecting talented federal 
scientists and engineers from the Department of Energy, NOAA, and the 
other mission agencies with STEM students who have a passion for these 
issues.
    Today's hearing provides us with an opportunity to hear more about 
how STEM professionals with expertise and valuable real life experience 
are helping students better understand STEM concepts and learn about 
career opportunities. This is vital, not just for the companies 
involved but for the future competitiveness of our Nation.
    I want to thank the witnesses for being here this morning, and I 
look forward to your testimony.

    Chairman Brooks. Thank you, Mr. Lipinski.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time, I would like to introduce our witnesses, our 
panel for today's hearing. Dr. Michael Beeth is a Professor in 
the Department of Curriculum Instruction at the University of 
Wisconsin in Oshkosh. He has coordinated the Alternative 
Careers in Teaching program, also known as act!, since its 
inception in 2006.
    Mrs. Christine Sutton is a certified Alabama Math, Science, 
and Technology Initiative Teacher, also known as AMSTI. She is 
very innovative and a creative instructor, employing hands-on 
activities in real-life situations to teach math. She fully 
embraces the use of technology such as computers, ELMO document 
cameras, and active boards as diverse methods of teaching. 
Being from my home district, and by the way, where my kids 
graduated from high school, I am proud to have her with us 
today.
    Ms. Robin Willner is Vice President of Global Community 
Initiatives for the IBM Corporation. She oversees a range of 
global philanthropic and volunteer programs including the 
Talent Programs, Corporate Services Corps, Transition to 
Teaching, and online mentoring.
    Mr. Jason Morrella is President of the Robotics Education 
and Competition Foundation, known as REC. Mr. Morrella is 
responsible for the overall strategic planning, organization, 
development, program operations, and financial management of 
the nonprofit organization. Mr. Morrella has more than 15 years 
of experience in the nonprofit, corporate, and academic 
sectors.
    Dr. Jennifer Jones is a Principal Clinical Scientist at 
Abbott Vascular. At Abbott Vascular, Dr. Jones is responsible 
for phase three clinical trial development in the area of 
coronary devices and percutaneous coronary intervention. Dr. 
Jones also works closely with the Abbott Family Science Program 
in California.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which the Members of the Committee 
will have five minutes each to ask questions.
    I now recognize our first witness, Dr. Michael Beeth, for 
five minutes.

           STATEMENT OF DR. MICHAEL BEETH, PROFESSOR,

           DEPARTMENT OF CURRICULUM AND INSTRUCTION,

                UNIVERSITY OF WISCONSIN OSHKOSH

    Dr. Beeth. Good morning. Chairman Brooks, Ranking Member 
Lipinski and Members of the Subcommittee. Thank you for the 
opportunity to discuss the act! program with you today. My name 
is Michael Beeth, and I have coordinated the act! program since 
2006.
    Act! provides STEM professionals with five or more years of 
work experience a path to transition into careers as teachers 
of math or science. The act! program is unique in that we 
recognize and award credit for the academic preparation and 
real-life experiences STEM professionals can bring to teaching. 
More than 100 STEM professionals have enrolled in the act! 
program since 2006, and we have received inquiries about this 
program from another 300 individuals.
    The act! program addresses the documented need for highly 
qualified math and science teachers in Wisconsin. Northeast 
Wisconsin is fortunate to have the types of businesses and 
industries that can provide a large pool of individuals with 
degrees in math or science for the act! program. Seventy-eight 
percent of our students come from within a 60-mile radius of 
Oshkosh, although we do have students in nearly every region of 
Wisconsin, as indicated on the map attached to my testimony.
    The impetus for the act! program came through the Northeast 
Wisconsin Educational Resource Alliance, we call NEW ERA, a 
consortium of K-12 school districts, public and private 
colleges, and universities across 18 northeast Wisconsin 
counties. Part of NEW ERA's mission encourages partnerships 
like act! that serve the learning needs of the 1.2 million 
people in northeast Wisconsin and that strengthen the business 
and industrial community as well. NEW ERA is an outgrowth of 
NEW North, an organization of private and public sector 
business and education leaders that promotes the region's human 
resources, talents, and creativity for the purposes of 
sustaining and growing our economy.
    Individuals become aware of the act! program through our 
Web site and human resource departments at their employers' 
workforce development offices, admission advisers at one of our 
partner institutions, or by word of mouth. We have done little 
formal advertising of the act! program since it is well known 
and promoted by the members of NEW North and NEW ERA.
    Retaining STEM professionals in the region and developing 
their talents as teachers is a goal for the act! program, NEW 
North and NEW ERA. Of 100 individuals admitted so far, seven 
hold terminal degrees, 26 a master's degree and 67 a bachelor's 
degree. STEM professionals admitted to the act! program have 
majors in genetics, microbiology, wood and paper science, 
chemical engineering, geology, environmental science, 
economics, and mathematics, to name a few. One individual holds 
a Ph.D. in mechanical engineering and 10 patents. These STEM 
professionals bring real-life experiences from fields such as 
engineering, cartography, accounting, quality control, nuclear 
medicine and statistical analysis and information technology. 
With the average age of individuals admitted to the act! 
program being 41, many bring 15 or more years of work 
experience.
    Coursework in the act! program is based on principles of 
adult learning. Online and hybrid courses allow our students 
maximum flexibility to remain employed until the semester they 
start their student teaching experience. Financial support for 
qualified individuals is available through two Robert Noyce 
National Science Foundation grants totaling $1.5 million. 
Individuals who qualify for Noyce receive a stipend of $13,000. 
We also partner with the Wisconsin Department of Public 
Instruction on a $2.2 million U.S. Department of Education 
grant to increase the number of math and science teachers in 
Wisconsin. Both grants require recipients to teach in high-need 
schools for two years as a condition of accepting an award.
    To date, 30 individuals have completed the act! program and 
are teaching. Twenty have full-time teaching positions, many in 
high-need schools. Nine of our program completers are 
substitute teaching, and one opened a tutoring business in 
math. All of our program completers are place-bound in the 
sense that they have spousal, family, and civic connections to 
their communities. Our students are well known to school 
administrators as members of their communities first and 
desirable as employees because of their maturity, the depth of 
their content knowledge, and their work experience. Thus, we 
are producing a pool of highly qualified math and science 
teachers who are connected to the communities where they are 
likely to teach.
    One of the challenges our students face has to do with time 
management, broadly speaking. While our students have been 
successful learners and employees in the past, they must learn 
now how to balance their attention to academic preparation with 
demands from their work, civic and family obligations, and 
expectations for involvement in extracurricular duties. This 
challenge surfaces first during the student teaching experience 
and persists in the first year or two of full-time employment.
    We are confident the STEM professionals we prepare have a 
level of analytic ability and human leadership skills in 
addition to their content knowledge that will serve their 
schools and the teaching profession well. Preparation in a STEM 
profession allows act! teachers to write integrated curriculum 
for local, State or national organizations to assist colleagues 
in the analysis of student test data and to rigorously document 
the impacts of their own teaching on student learning. STEM 
professionals bring knowledge and skills to the teaching 
profession that traditional undergrad students do not have or 
have not had the time to develop. In my opinion, it would 
beneficial if all STEM professionals received explicit training 
regarding how they can become engaged in the education of K-12 
students through programs like those assembled for this 
hearing.
    Thank you.
    [The prepared statement of Mr. Beeth follows:]

          Prepared Statement of Dr. Michael Beeth, Professor,

               Department of Curriculum and Instruction,

                    University of Wisconsin Oshkosh

    Chairman Brooks, Ranking Member Lipinski, and Members of 
the Subcommittee on Research and Science Education, thank you 
for the opportunity to discuss with you the Alternative Careers 
in Teaching program (act!). My name is Michael Beeth and I have 
coordinated the act! program since it began in 2006. Act! 
provides STEM professionals with five or more years of work 
experience a path to transition into careers as teachers of 
math or science. The act! program is unique in that we 
recognize and award credit for the academic preparation and 
real-life experiences STEM professionals can bring to teaching. 
More than 100 STEM professionals have enrolled in the act! 
program since 2006, and we have received inquires about this 
program from another 300 individuals.
    Act! is a multi-institution partnership involving the 
University of Wisconsin Oshkosh, a four-year comprehensive 
university and the third largest public institution in 
Wisconsin, and five two-year University of Wisconsin College 
campuses. \1\ Our partnership allows students to enroll in 
courses close to where they live and work, to take classes in 
on-line or hybrid formats, and to remain employed as they 
complete our licensure program. We are interested in expanding 
the act! program to additional UW college campuses, 
particularly in southeast and central Wisconsin. \2\
---------------------------------------------------------------------------
    \1\  UW Fond du Lac, UW Fox Valley, UW Manitowoc, UW Marinette, and 
UW Sheboygan.
    \2\  UW Waukesha, UW Baraboo-Sauk County, and UW Richland.
---------------------------------------------------------------------------
    The act! program addresses the documented need for highly 
qualified math and science teachers in Wisconsin. \3\ Northeast 
Wisconsin is fortunate to have the types of businesses and 
industries that can provide a large pool of individuals with 
degrees in math or science for the act! program. Seventy-eight 
percent of our students come from within a 60-mile radius of 
Oshkosh, although we do have students in nearly every region of 
Wisconsin, as indicated on the map attached to my testimony.
---------------------------------------------------------------------------
    \3\  Fischer, T. & Swanger, W. (2006). Wisconsin Supply and Demand 
of Educational Personal. Madison: WI. Wisconsin Department of Public 
Instruction.
---------------------------------------------------------------------------
    The impetus for the act! program came through the Northeast 
Wisconsin Educational Resource Alliance (NEW ERA)--a consortium 
of K-12 school districts, public and private colleges, and 
universities across 18 northeast Wisconsin counties. Part of 
NEW ERA's mission encourages partnerships like act! that serve 
the learning needs of 1.2 million people in northeast Wisconsin 
and that strengthen the business and industrial community as 
well. NEW ERA is an outgrowth of NEW North--an organization of 
private and public sector business and education leaders that 
promotes the region's human resources, talents, and creativity 
for the purposes of sustaining and growing our economy.
    Individuals become aware of the act! program through our 
Web site, human resources departments at their employers, work 
force development offices, admissions advisors at one of our 
partner institutions, or by word of mouth. We have done little 
formal advertising of the act! program since it well know to 
and promoted by the members of NEW North and NEW ERA.
    Retaining STEM professional in the region and developing 
their talents as teachers is a goal for the act! program, NEW 
North, and NEW ERA. Of 100 individuals admitted to act! so far, 
seven hold terminal degrees, 26 a master's degree, and 67 a 
bachelor's degree. STEM professionals admitted to the act! 
program have majors in genetics, microbiology, wood and paper 
science, chemical engineering, geology, environmental science, 
economics and mathematics, to name a few. One individual holds 
the Ph.D. in mechanical engineering and 10 patents related to 
tissue manufacture and paper machine fabrics; others have 
taught in institutions of higher education but now prefer to 
develop their expertise to teach in grades 6-12. These STEM 
professionals bring real-life experience from fields such as 
engineering, cartography, accounting, quality control, nuclear 
medicine, and statistical analysis and information technology. 
With the average age of individuals admitted to act! being 41, 
many bring 15 or more years of work experience.Coursework in 
the act! program is based on principles of adult learning. \4\ 
Online and hybrid courses allow our students maximum 
flexibility to remain employed until the semester they start 
their student teaching experience. Financial support for 
qualified individuals is available through two Robert Noyce 
National Science Foundation grants totaling $1.5 million. 
Individuals who qualify for a Noyce award receive a stipend of 
$13,000. We also partner with the Wisconsin Department of 
Public Instruction on a $2.2 million U.S. Department of 
Education grant to increase the number of math and science 
teachers in Wisconsin. Both grants require recipients to teach 
in a high-need school for two years as a condition of accepting 
an award.
---------------------------------------------------------------------------
    \4\  Kasworm, C., Polson, C., & Fishback, S. (2002). Responding to 
Adult Learners in Higher Education. Malabar: Krieger.
---------------------------------------------------------------------------
    To date, 30 individuals have completed the act! program and 
are teaching. Twenty have full-time teaching positions--many in 
high-need schools. Nine of our program completers are 
substitute teaching, and one opened a tutoring business in 
math. All of our program completers are place bound in the 
sense that they have spousal, family, and civic connections to 
their communities. Our students are well known to school 
administrators as members of their communities first, and 
desirable as employees because of their maturity, the depth of 
their content knowledge, and their work experience. Thus we are 
producing a pool of highly qualified math and science teachers 
who are connected to the communities where they are likely to 
teach.
    One of the challenges our students face has to do with time 
management--broadly speaking. While our students have been 
successful learners and employees in the past, they must learn 
how to balance their attention to academic preparation with 
demands from their work, civic, and family obligations, and 
expectations for involvement in extracurricular duties. This 
challenge surfaces first during the student teaching experience 
and persists into the first year or two of full employment.
    We are confident the STEM professionals we prepare have a 
level of analytical ability and human leadership skills in 
addition to their content knowledge that will serve their 
schools and the teaching profession well. Preparation in a STEM 
profession allows act! teachers to write integrated curriculum 
for local, State, or national organizations; to assist 
colleagues in the analysis of student test data; and to 
rigorously document the impacts of their own teaching on 
student learning. STEM professionals bring unique knowledge and 
skills to the teaching profession that traditional 
undergraduate students do not have or have not had the time to 
develop. In my opinion, it would be beneficial if all STEM 
professionals received explicit training regarding how they can 
become engaged in the education of K-12 students through 
programs like those assembled for this hearing.
    Relevant Web sites: act! program: http://www.uwfox.uwc.edu/
academics/act2teach/; NEW ERA: http://www.neweraonline.org/; 
NEW North: http://www.thenewnorth.com/.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Brooks. Thank you, Dr. Beeth.
    I now recognize our second witness, Mrs. Christine Sutton, 
for five minutes.

              STATEMENT OF MRS. CHRISTINE SUTTON,

                    SECONDARY MATH TEACHER,

                 VIRGIL I. GRISSOM HIGH SCHOOL,

                HUNTSVILLE CITY SCHOOLS, ALABAMA

    Mrs. Sutton. Good morning, Chairman Brooks, Ranking Member 
Lipinski----
    Chairman Brooks. Excuse me. You will need to turn on your 
microphone and move it towards you so that--there you go.
    Mrs. Sutton. All right. Good morning, Chairman Brooks, 
Ranking Member Lipinski, and other Members of the Subcommittee. 
Thank you for inviting me to come this morning to share my 
personal experiences as a professional who left industry to 
pursue a second career in education at this hearing this 
morning. I have a bachelor's in industrial engineering and a 
master's in computer science. I worked in manufacturing 
automation and spent 22 years in industry, ending up as a 
program manager deploying transit management systems for public 
transit.
    When I reached my mid-40s, I decided that I might want to 
make a change to be more involved in my community, but also I 
really enjoyed working with students, and I think that that is 
something that really needs to be kept in the forefront; when 
you make the move to leave industry to become a secondary 
educator or any kind of educator, you are teaching students. 
You are not teaching your content. You have great expertise but 
you need to have the preparation and the heart to really be 
involved with the students. And so I wanted to bring that out 
something that was really key.
    I ended up finding a program at Johns Hopkins which would 
recognize my previous coursework which a lot of industries--a 
lot of universities, rather, don't recognize that engineering 
is similar to math and so they didn't give me the prerequisites 
that I would need to actually become a core math teacher. But 
through Hopkins I was able to get my master's degree in 
education, move to Alabama, where I now teach at Huntsville 
City Schools, and I am working right now--after three years in 
the middle school I now work at the high school. I teach 
algebra, computer science, advanced placement computer science, 
and I also teach cybersecurity. The cybersecurity course is 
part of our applied math and science academy that we set up in 
our school district. It has right now eight courses that are 
focused at STEM education, and the other courses that we have 
at the academy are introduction to engineering design, 
principles of engineering, digital electronics, principal 
biomedical sciences, and human body systems. Through additional 
community partnerships, we added building science and EMT 
training in partnership with Calhoun University, and we also 
have the cybersecurity class I teach, which is the pilot in the 
country, and it is a wonderful opportunity. It is the kind of a 
place that I was hoping that I could find to teach when I 
envisioned teaching. It gives me an opportunity to work with 
all levels of students, which I think is also very important. 
When you become a STEM educator, you have to be equipped to 
teach core courses, which are basic sciences or mathematics, so 
that you can strengthen the skills of the students so they can 
go on to succeed.
    I do teach in the city school system, so I get students at 
all levels coming into the high school, and as a ninth grade 
math teacher, I have to bring them up to a level where they are 
in a place where they can continue their education in high 
school and then qualify to get accepted to good, solid STEM 
education programs in universities; so as a person 
transitioning you need to have the skills and the education in 
a quality teacher preparation program which gives you the tools 
to develop interventions, to teach students at all levels, 
students with special needs, to help them bring them along too. 
So I think that having solid teacher preparation is really 
critical to being successful as a STEM educator in the high 
school.
    I think that in my situation, I was very lucky that I was 
able to have the position I have, but I also had a lot of 
preparation and an opportunity with the Huntsville city 
schools. One of the things that I would really love to see is 
that if we could have the academy, which is now piloted in my 
high school, extended to other high schools to give other 
students the opportunity to learn and other STEM teachers an 
opportunity to teach. Each of the academy classes is taught by 
a different instructor. We have eight instructors, we teach six 
other classes during the day, we have relatively large class 
sizes, and we have a contribution to make to the school beyond 
just our STEM education. So I think that when we think about 
STEM, it has to be broader than just the technology, it has to 
also include teaching fundamentals to students to make them--to 
prepare them to be successful in STEM careers.
    [The prepared statement of Mrs. Sutton follows:]

              Prepared Statement of Mrs. Christine Sutton,
         Secondary Math Teacher, Virgil I. Grissom High School,
                    Huntsville City Schools, Alabama

    Chairman Brooks and other Members of the Subcommittee, thank you 
for inviting me to share my personal experiences, as a STEM 
professional who left industry to pursue a second career as an 
educator, at this hearing entitled STEM in Action: Transferring 
Knowledge from the Workplace to the Classroom.
    My name is Christine Sutton, and I am employed by Huntsville City 
Schools to teach students enrolled in mathematics, computer science, 
and cybersecurity courses at Virgil I. Grissom High School in 
Huntsville, Alabama.
    I'd like to begin by sharing my background with you. I graduated 
from Pennsylvania State University in 1981 with a bachelor's degree in 
industrial engineering and began my industry career as a software 
engineer working for Westinghouse, near Baltimore, Maryland, deploying 
automated manufacturing systems. I earned my masters degree in computer 
science from Johns Hopkins University to enhance my software systems 
engineering skills. Twenty-two years later, I was a program manager 
responsible for leading teams of engineers and subcontractors to deploy 
public transit Computer Aided Dispatch/Automated Vehicle Location (CAD/
AVL) systems.
    In my mid-40s, I decided to broaden my life experiences by changing 
careers and began to take the steps to make it happen. As a parent, I 
had many opportunities to volunteer at my children's schools and to 
help their friends with math assignments. I was amazed by how many 
students (and adults) disliked math and believed that I could transfer 
my love of problem solving to the classroom to change attitudes and 
build confidence.
    As I explored my options for preparing to teach full-time, I found 
that many local Universities had a narrow definition of the 
prerequisite education required to be accepted into a teacher 
preparation program. Engineering courses would not satisfy 400-level 
mathematics course requirements, my local universities did not offer 
programs leading to certification as a computer science teacher, and 
industry experience was not recognized. However, Johns Hopkins 
University offered a full-time and a part-time program that 
acknowledged my engineering and computer science course work and 
allowed me to become a certified, highly qualified secondary 
mathematics teacher with a Master of Arts in Teaching. They also 
encouraged me to apply for the Christa McAuliffe Scholarship, since I 
was seeking certification in a critical shortage area, to receive 
tuition assistance in exchange for teaching three years in a Maryland 
public school.
    I chose the part-time program so I could begin my teacher education 
at night while I continued to work, enabling me to confirm that I had 
an understanding of the demands of a teaching career before I left 
industry. Many of the instructors for this program were active full-
time educators and administrators from the Montgomery County, Maryland, 
School District who helped prepare career changers to succeed in a 
multilingual, inclusive classroom.
    Before I could complete the program, my husband's company relocated 
us to Huntsville, Alabama, and I repaid the scholarship money. However, 
Johns Hopkins allowed me to complete my full-semester teaching 
internship with Huntsville City Schools under the supervision of NCATE-
accredited University of Alabama Huntsville (UAH). After passing the 
secondary math Praxis and delivering my portfolio, I graduated from 
Johns Hopkins in spring 2007. My certification was recognized by 
Alabama because they have reciprocity with Maryland.
    I applied for a teaching position with Huntsville City Schools, but 
there were no openings for secondary mathematics teachers. While 
waiting for a full-time position, I began working as a substitute 
teacher and then accepted an industry offer to work as a system 
engineer, and my security clearance was reactivated. Two weeks before 
the beginning of the 2008 school year, one of the mathematics teachers 
at the middle school where I did my internship left unexpectedly. 
Thankfully, the principal remembered me and requested that I be added 
to the list of applicants for the position.
    For the next three years, I taught math to middle school students. 
During this time, I became adept at using Alabama Reading and Math Test 
(ARMT) data to identify areas of weakness for individual students and 
within the school population, and collaborated with the other seventh 
grade math teacher to develop targeted interventions to try to 
strengthen the basic math skills of all seventh grade students. At the 
end of my first year at Challenger Middle School, the percentage of 
students proficient on the seventh grade Math ARMT jumped 10 percent. 
Administration support was key to our success. The other seventh grade 
math teacher was assigned (and compensated) to serve as my mentor. She 
helped me develop solid classroom and behavior management strategies 
and guided me through the reporting requirements mandated for 
struggling students and students with learning disabilities.
    This summer I was given an opportunity to transfer to Virgil I. 
Grissom High School. Grissom is a large (2,000 student) Blue Ribbon 
Award winning school which hosts the Huntsville City School System's 
Academy of Applied Math and Science. The Academy is a pilot for Project 
Lead the Way (PLTW) and independently raises funding for teacher 
training, computers, and lab equipment from industry, community groups, 
and local political leaders. PLTW provides training and curriculum for 
courses which encourage hands-on problem solving activities in a 
variety of areas which have been shown to significantly increase 
interest and abilities in STEM-related programs at the college level.
    Grissom's Academy, which in its third year has an enrollment of 256 
students, currently offers Introduction to Engineering Design, 
Principles of Engineering, Digital Electronics, Principles of 
Biomedical Sciences, and Human Body Systems (all PLTW classes). Through 
additional community partnerships, it added Building Science (sponsored 
by the local chapter of Associated Builders and Contractors), Emergency 
Medical Training (EMT) (in partnership with Calhoun Community College), 
and Cybersecurity (in partnership with the Career Technical Education 
Foundation and the SAIC corporation). The Academy plans to expand the 
course offerings this fall to include four additional PLTW classes: 
Civil Engineering and Architecture, Aerospace Engineering, Biotechnical 
Engineering, and Medical Interventions.
    Currently, all the PLTW courses are taught by degreed engineers, 
and the Academy is enriched by community volunteers. The Engineering 
Applications course is supported by two UAH Engineering professors who 
work with the class once each week, and an ongoing engineering mentor 
(who also sponsors the robotics team). An SAIC penetration tester works 
with my Cybersecurity students twice each month and mentors our two 
Cyber Patriot Teams.
    In addition to Cybersecurity, I also teach Introduction to Computer 
Science, AP Computer Science, and Algebra I. The environment at Grissom 
is ideal. It is the type of situation I hoped to find when I initially 
envisioned a second career as an educator. At Grissom, I have an 
opportunity to work with students at every level and am able to bring 
my industry experience into the classroom in a meaningful way. This 
year I earned tenure and plan to continue teaching for at least the 
next 10 years.
    As mentors, industry professionals can enhance the delivery of STEM 
education when they:

    <bullet>  work closely with classroom teachers to help create 
projects which challenge students to apply their skills in new ways;

    <bullet>  model problem-solving strategies and encourage students 
to collaborate (not compete) as they work toward a common goal;

    <bullet>  encourage students to become independent problem solvers 
who recognize opportunities for improvement and have the confidence to 
follow through with their own ideas and solutions; and

    <bullet>  help students imagine themselves applying their gifts and 
skills in a variety of contexts, to understand that a career in 
medicine is not limited to becoming a doctor or nurse, and engineers do 
more than draft designs.

    I think one of the greatest challenges industry professionals face 
when they try to become mentors is finding the time to work with the 
students on a continuing basis to build relationships and share a 
variety of experiences.
    While they may have extensive expertise, they cannot lose sight of 
the fact that they are not just teaching their content, they are 
teaching students. Also, their involvement needs to extend beyond face 
time with the students. They need to work with the classroom teacher to 
plan lessons and be willing to help supply materials if necessary. 
Finally, they need to find an environment, like Grissom, which offers 
STEM courses and has a faculty and administration which welcome their 
contributions.
    Professionals who are seeking to make the transition from industry 
to the classroom must overcome many impediments. If they want to teach 
full-time, they must:

    <bullet>  be willing and able to teach core subjects, not just 
engineering or technology electives;

    <bullet>  be prepared to teach students who come to their classes 
with various levels of preparation, not just advanced students;

    <bullet>  genuinely enjoy pre-teen and adolescent students, and be 
prepared to manage the inconsistent behavior which characterizes this 
stage in their development;

    <bullet>  work in classrooms with relatively high student-to-
teacher ratios (Grissom has 101 instructors for 2,000 students);

    <bullet>  be willing to give up their flexible schedules and work 
in relative isolation from other adults for the majority of the day;

    <bullet>  recognize that teaching involves a tremendous amount of 
preparation, especially when they are piloting new curriculum; and

    <bullet>  be prepared to continue their own education during their 
evenings and summers.

    After they realistically assess and accept what full-time teaching 
entails, they must find a certification path which will culminate in 
the recognition that they are highly qualified to teach their core 
subject.
    My expertise in requirements and criteria for certification is 
limited to my personal experience and the experiences of my peers. That 
said, I believe that quality formal teacher education is critical to 
long-term success as an educator. I believe that teaching is a 
profession, which is the source of all professions, and that just 
because you know something does not mean you know how to teach it.
    Teaching professionals must have a solid understanding of human 
development and learning, curriculum, instruction and assessment, and 
be able to work collaboratively to differentiate instruction for 
students with special needs. They must also be able to prepare their 
students to succeed in their post-secondary education.
    I believe that the Federal Government could pursue the following 
three avenues to facilitate the transfer of knowledge from the 
workplace to the classroom:

    <bullet>  Encourage professionals who are considering leaving 
industry and accepting a significant pay cut (often greater than 50%) 
to seek teacher education by offering federally funded scholarships for 
certification in a STEM discipline in exchange for teaching three years 
anywhere in the country.

    <bullet>  Facilitate programs like the Johns Hopkins University/
Montgomery County Maryland School System partnership to encourage 
universities to look for alternative ways to assess transferrable 
knowledge (like Praxis II) and partner with local school districts to 
enhance the faculty of part-time teacher education programs which 
target industry professionals looking to transition to the classroom.

    <bullet>  Help school districts like Huntsville City Schools extend 
successful programs, like The Academy of Applied Math and Science, to 
additional secondary schools to create teaching positions for STEM 
educators.

    To quote Seneca, ``Luck is what happens when preparation meets 
opportunity.'' I believe that the Federal Government can play a 
meaningful role in facilitating teacher preparation and creating 
opportunities for STEM educators.
    Thank you for inviting me to share my experiences with you this 
morning, and I welcome further opportunities to discuss ways to help 
equip students to meet the demands of continued education in STEM 
disciplines, which will prepare them for future employment in areas 
critical to maintaining our country's security and prosperity.

    Chairman Brooks. Thank you, Mrs. Sutton.
    And we respect each of our witnesses. Just remember to push 
the little talk button and have the microphone closer pointed 
at you instead of off to the side as they seem to have been set 
up before we got here.
    The Chair now recognizes our next witness, Ms. Robin 
Willner, for five minutes.

        STATEMENT OF MS. ROBIN WILLNER, VICE PRESIDENT,

                 GLOBAL COMMUNITY INITIATIVES,

                   CORPORATE CITIZENSHIP AND

               CORPORATE AFFAIRS, IBM CORPORATION

    Ms. Willner. Thank you very much, Chairman Brooks and 
Congressman Lipinski and the other Members of the Committee. It 
is a great pleasure to be here and share with you the 
experience from IBM, and we already, I think, have some great 
convergence here and violent agreement on what these programs 
should be, so it is a great panel. Thank you for the 
opportunity.
    As you know, I am Robin Willner, Vice President of Global 
Community Initiatives at IBM, and I have the great honor to be 
responsible for IBM's investments in our philanthropic programs 
around the world with a special emphasis on education, which 
has long been our priority. We know at IBM that we make the 
biggest difference when we provide not only our hardware, our 
software, the services that we are so well known for--but the 
talent of our IBMers, that is what really makes the difference.
    This year, I hope you have heard, it was IBM's centennial, 
and as part of that, our chairman and CEO challenged IBMers 
around the world to do volunteer work, to actually provide at 
least eight hours of service in the community. As a result, 
more than 300,000 IBMers around the world were volunteering, 
many of them for hundreds of hours, not just eight, and I do 
know that in every State represented by the Committee, every 
State in America, that we had IBMers volunteering. As I said, 
the place that they are most likely to volunteer is in a 
school. They have a great tradition there, and that leads me 
into this issue of transition to teaching and the topic today.
    Congressman Lipinski already summarized much of the data 
that I had in my testimony on why this matters, but for IBM, we 
know that our future is absolutely dependent on the robust 
economy in the United States, and that means in the 21st 
century we need STEM professionals. We need to be able to hire 
staff who are not only going to be capable but are going to be 
innovators and leaders in the new economy. Our customers need 
to be able to hire people and we need to grow the economy. The 
volunteerism that we do and projects like Transition to 
Teaching and Second Career Teaching also matter to IBM so that 
we can attract the best employees. I am delighted that just 
today, Fortune magazine rated IBM as the leader, the best place 
for leaders to, work in the United States, and part of that is 
because of things like Transition to Teaching. So this is a 
very, very important program for us.
    When we think about the kinds of students that we need to 
grow the economy, as has been mentioned before, of course they 
need to have great basic skills in math and science but they 
also need, beyond the rudimentary skills, to have the social 
skills to work in diverse multidisciplinary teams. They need to 
be adaptable. They need to have leadership skills. They need 
communication skills to work with customers and clients and 
coworkers, and they need the ability to be comfortable with 
ambiguity, to recognize patterns among disparate data, to be 
inquisitive and analytical. In other words, they need fantastic 
teachers.
    IBM announced Transition to Teaching in the fall of 2005, 
and we started the program in 2006. We now have more than 120 
IBMers who have participated and we have 31 IBMers who have 
left the company and are now teaching around the country. They 
are our stars at IBM, the 31 who are now teaching.
    What exactly is Transition to Teaching? Well, we provide 
them with a stipend of $15,000. The $15,000 can be used to 
cover their tuition while they are still working at IBM and 
going to school part-time. It covers all related coursework, 
all related fees, whatever costs they have to complete their 
certification. They can also use those dollars for a stipend so 
that they can take a special leave of absence while they do 
their student teaching or other work in the classroom. That way 
they can maintain their benefits and they can have a smooth 
transition.
    Three things that I would highlight that we need to be 
thinking about as we go forward. We need better teacher 
training programs that are focused, that provide them with 
everything they need to know. Nothing more; they are anxious to 
get into the classroom. But nothing less because they need to 
be prepared. We encourage them to be in the classroom. We 
encourage them to get the skills of being a teacher, not just 
their basic math and science skills. We also need to make sure 
that when they do student teaching that they are working with 
qualified teachers, with mentors, with real master teachers so 
that they are learning from the best, and we also need to make 
sure that when they get into the classroom that they have 
ongoing support and mentoring. By the way, online technology 
and social networking can help make that happen in a very 
efficient way and a much cheaper way.
    I see that my time is running out and I was hoping that I 
could also talk a little bit about P-Tech, which is a new 
program that we just started this fall where IBMers are not 
only providing mentorships but we are also bringing the 
students from this career program into our workplace, giving 
them work-based learning, and preparing them directly for good-
paying careers in the IT sector, and hopefully I can cover that 
in the questioning period.
    [The prepared statement of Ms. Willner follows:]

        Prepared Statement of Ms. Robin Willner, Vice President,
        Global Community Initiatives, Corporate Citizenship and
                   Corporate Affairs, IBM Corporation

    Good morning. I am Robin Willner, Vice President of Global 
Community Initiatives. I am responsible for IBM's community relations 
program worldwide, including our work in education. Over the last two 
decades, IBM has been one of the leading corporate contributors of 
cash, technology and IT services to non-profit organizations and 
educational institutions across the U.S. and around the world. We have 
learned that our most effective grants and partnerships are those that 
focus on IBM's unique offerings--leveraging our software, hardware and 
technical services and most importantly, the talent of IBMers. We are 
most successful when we design initiatives to bring the skills and 
experience of our employees into the classroom, interacting directly 
with students, teachers and administrators, to provide what we call a 
``smarter education.''
    Thank you for giving me the opportunity to share with you IBM's 
Transition to Teaching initiative as well as other innovative 
strategies that we have developed. These all aim to increase the 
pipeline of young people prepared to be the STEM professionals and the 
leaders of a growing economy.
    I don't need to review the growing body of research that highlights 
the disconnect between the labor market needs and the employment 
opportunities of the 21st century against the inadequate number of 
students graduating from high school prepared and ready to pursue STEM 
careers. This hearing is one step in this Committee's recognition and 
examination of these issues and potential solutions.
    We all know that the U.S. is falling well behind other countries in 
the number and proportion of high school graduates who intend to pursue 
STEM careers. The relatively small number of students who eventually 
complete their post-secondary education in STEM fields further 
increases our economic disadvantage. Moving from the macro-economic to 
the personal, a new report from the Georgetown Center on Education and 
the Workforce shows that 65 percent of individuals with bachelor's 
degrees in STEM occupations earn more than their peers with master's 
degrees in non-STEM occupations. Further, 47 percent of those with 
bachelor's degrees in STEM occupations earn more than even individuals 
with Ph.D.s in non-STEM occupations. Additionally, even people with 
only STEM certificates can earn more than people with non-STEM degrees.
    Clearly, continued economic growth will require a base of 
scientists and engineers and the next generation of innovators. It is 
clear that if we are going to have a constant flow of talent in science 
and engineering, we need to attend to the earliest stages in the K-12 
pipeline. We must insure that students in middle and high school are 
having the experiences that will generate enthusiasm about science and 
math and their ability to solve problems. They must also complete a 
rigorous curriculum with high academic standards so that they have the 
option of pursuing scientific and technical degrees in college.
    Beyond basic math and science, they will also need a range of 
workplace competencies. These include the social skills to work in 
diverse, multi-disciplinary teams; adaptability and leadership; 
communication skills to work with customers and clients and co-workers; 
and the ability to be comfortable with ambiguity, to recognize new 
patterns within disparate data, and to be inquisitive and analytical.
    This is a very tall order, and while there are many components to 
effective school improvement, a critical and necessary factor is 
developing a cadre of excellent math and science teachers in our 
schools, teachers who have the content expertise, the real world 
experience, an understanding of problem-based learning, and the 
pedagogic practice to launch the next generation of innovators.
    In September 2005, IBM announced Transition to Teaching, our own 
initiative to address the K-12 pipeline issues and encourage young 
people to enter science and engineering careers. This is just one 
program in our portfolio of education programs including those aimed at 
early childhood education, TryScience and Teachers TryScience, 
MentorPlace and P-TECH. Transition to Teaching emerged from a decade of 
programs and learning of what works best.
    For Transition to Teaching, we decided to address the issue by 
leveraging our greatest asset--IBM employees. Of course, most IBMers 
have backgrounds in math and science; whether they are currently 
working in software development, research, consulting, or management. 
IBMers are also great volunteers. This year is IBM's Centennial and a 
major component of our anniversary was Celebration of Service, where 
IBMers around the world answered our Chairman and CEO's call to do at 
least eight hours of service in their community. More than 300,000 
IBMers worldwide volunteered through our On Demand Community, 
contributing more than 10 million hours of service. This will not end 
with our Centennial celebration--the volunteering will continue.
    The place that IBMers are most likely to volunteer is in a school, 
whether to teach hands-on science classes for eWeek, serve as one of 
our 6,000 eMentors providing online academic assistance to students, 
work with children in a Head Start or daycare program, lead an after-
school program for middle school students, present at Career Days on 
STEM opportunities, provide professional development to teachers or 
coach high school students for a science fair through TryScience.org. 
They also run EX.I.T.E. camps for middle school girls to encourage them 
to pursue math and science careers. These IBMers tell us repeatedly 
that they have a passion for education, for young people and for giving 
back to the community.
    At the same time that we are focusing on the national decline in 
math, science and engineering, another trend has the public's 
attention--the changing face of the labor force. Recognizing that there 
is a large group of IBM employees who are approaching what was once 
formal retirement age, and that IBM employees are eager to continue 
working and contributing to their communities, we are specifically 
targeting our mature workers who are interested in a second career in 
teaching.
    Many IBM employees are already thinking about teaching as a second 
career and are seeking good information and programs. Others have the 
exact background and skills and we want to introduce the idea of 
teaching into their plans. We want to reach all of them and encourage 
these IBM employees who are ready for their next challenge to help 
address the national teacher shortage in math and science.
    More than 120 IBMers have participated in the Transition to 
Teaching program to date. Each employee chosen for the program is a 
math or science professional with at least one degree in a STEM field--
though most of them have several. The most common degree that we see is 
in some area of engineering, but participants come from all parts of 
IBM's business with experience in every area of math, science, 
engineering, and computer science. They have experience working with 
children, volunteering in one of the many IBM programs and often adding 
additional volunteer time at after school, weekend, and summer programs 
in their communities. They participate in a range of teacher 
certification programs, depending on their experience, prior course 
work, and the specific licensing requirements and available graduate 
programs in their respective States
    IBM provides each participant with up to $15,000 for tuition 
reimbursement and to cover related costs. The IBMers can choose to use 
some of these funds as a stipend for a special leave of absence that 
enables them to gain direct experience in the classroom and complete 
student teaching, all while maintaining their benefits at IBM.
    Transition to Teaching is based on a number of proven programmatic 
essentials. Teachers must have a strong, in-depth background in the 
subject area. Our criteria focus on IBMers who already have a 
bachelor's degree or higher in a math or science discipline. We also 
believe that IBMers need to learn the craft and skill of teaching, 
classroom management, and instructional practice to be effective. So we 
are reimbursing their tuition costs for education preparation. And 
finally, we believe that it is absolutely essential for an individual 
to have real-life K-12 classroom experience to observe good teaching 
and then practice good teaching before taking responsibility for a 
class of children. Therefore, we are also providing stipends for IBMers 
so they can go on a leave of absence, maintain their benefits, and do 
student or practice teaching for up to one year.
    I want to highlight three challenges that we need to address going 
forward in order to attract math and science professionals into the 
schools and prepare them to become exemplary teachers:

    <bullet>  We need to develop standards for the pedagogic and 
instructional skills and knowledge required and focus on just the 
limited number of effective education courses necessary for teacher 
certification,

    <bullet>  We need to assure that candidates are placed in 
supportive environments for practice teaching positions under qualified 
teachers, and

    <bullet>  We need to provide mentoring and peer support during the 
first two years of a new teacher's career to assure that they are able 
to provide the highest quality of education for their students.

    The vast majority of degree programs in education still do not meet 
these criteria. First, too many programs include coursework that is not 
relevant or helpful to new teachers. There is not enough practical, 
hands-on experience. We don't prepare world champion sports teams by 
discussing the physics of the jump shot or the history of the Olympics. 
We give them time to practice, and that's what our teachers need. 
IBMers are also eager to start teaching. Just as we now have standards 
for what every student in grades K-12 must know and be able to do in 
each subject, we need to have consensus standards on what a candidate 
for teaching needs to know and be able to do. We need to focus on the 
essential skills while recognizing the distinct experience of adults 
approaching a second career. We still need to develop streamlined 
programs that provide second-career teachers with a program that can be 
completed in a limited period of time, that include everything they 
need to know, but nothing more.
    Second, we need to make sure that practice teaching is done under 
qualified, experienced teachers. This means collaborating with schools 
and school districts to place teacher candidates in appropriate 
settings and also providing support to mentor teachers. We need to 
assure that the valuable time of these candidates is spent on 
worthwhile experiences. And third, beyond student teaching, once 
teachers enter their new careers, they need ongoing mentoring from 
expert teachers and peer support to succeed. Social media and new 
communication tools make this much easier and cost-effective to provide 
without interfering with the school day.
    IBM's Transition to Teaching is one small effort. At this time, we 
have 31 IBMers who have completed the program and have left IBM as 
fully certified teachers who are now teaching math and science around 
the nation. However, we know that our 120 or even 150 participants will 
not make an appreciable difference in a teacher shortage of national 
proportions, though we are convinced that they will have a significant 
positive impact on the thousands of students they teach. If another 25 
large companies established similar programs, we could bring a 
substantial number of math and science teachers into the ranks. We can 
also change the community conversation and raise the reputation of 
teaching as a desirable career. However, the private sector alone can 
not solve this problem. It will take improvements in teacher training 
programs and professional development at every school district. And 
school districts must change the way the recruit, hire, place, and 
supervise teachers to retain the best professionals.
    But the success of Transition to Teaching is evident when we speak 
to the new teachers and their principals.
    Gary, now teaching math in New York: ``This is my dream! To become 
an eighth grade math teacher.''
    Jim, now teaching math in Texas: ``People wonder what IBM has to 
gain. My impression is that it is the right thing to do to help the 
country.''
    And from one of the principals in White Plains, NY, now supervising 
a Transition to Teaching graduate: ``Jennifer has had an outstanding 
beginning as a teacher. Her experience as a mother and a former manager 
has enabled Jen to nurture and advance middle schools students at this 
critical crossroad. She is exuberant and enthusiastic about math and 
makes it come alive for her students. Jen is an integral part of this 
building. Undoubtedly, her professionalism comes from her IBM 
background and her enthusiasm is contagious. I am very grateful that 
IBM's Transition to Teaching Program helped to add Jen to our team.''
    Transition to Teaching works on several fronts. The participants 
achieve their career aspirations and are able to make a significant 
contribution. IBM's support makes the transition smooth and viable in 
terms of preparation, financing, and benefits. IBM also gains 
substantially, both in terms of personnel recruitment and retention in 
the near term, by reinforcing our status as a great corporate citizen 
and an excellent employer. Moreover, this is an investment in the long 
term, insuring the pipeline of new STEM professionals who will one day 
work at IBM or one of our clients.
    I would be remiss if I didn't take this opportunity to share with 
you one other new IBM initiative in education. As I explained, our 
employees have many opportunities to volunteer in schools. This fall, 
we combined this great volunteer pool with a new partnership to design 
secondary schools that will prepare students to enter a good-paying 
career in information technology. Working with the NYC Department of 
Education, the City of New York, and New York City Technical College, 
we have launched P-TECH or Pathways in Technology Early College High 
School. This unique 9-14 program provides students with academic 
preparation in science, technology, engineering, and mathematics. P-
Tech graduates will earn a no-cost Associate in Applied Science (AAS) 
degree in computer systems technology or electromechanical engineering 
technology. P-Tech graduates will be prepared to enter the growing 
high-technology workforce immediately upon completing their academic 
program. Graduates also will receive the strong academic grounding 
necessary for them to pursue four-year bachelor's degrees and beyond. 
P-Tech is located in the Crown Heights section of Brooklyn, New York, 
and serves a very diverse population.
    P-TECH is an early college high school, a model that provides 
students the opportunity take college-level courses as early as 10th 
grade, earn college credits, and complete an integrated high school/
associates degree curriculum that seamlessly leads them into the adult 
world. But P-TECH goes one step further. Not only will students be able 
to take college-level courses and earn credit--they will be able to 
complete a free associates degree. And with the participation of IBM, 
we have been able to map the job skills required for every entry-level 
job at IBM that requires an associate's degree and review, revise, and 
enhance the curriculum to assure that the students will meet those 
requirements. They will also have workplace experiences and work-based 
learning to complete their learning and preparation for success in the 
workforce. To make sure that students, regardless of their background 
or experience, can meet this very high bar, every one of them will have 
an IBM mentor. Last month, we had more than 100 IBMers at P-TECH to 
meet the ninth-grade students they will mentor this year and over the 
next several years. I had the privilege of participating--hearing and 
seeing the excitement, the inspiration, and the learning that these 
pairs of students and mentors have already begun.
    Our goal is not to have one unique school for several hundred 
students, but to develop a core program that can be readily replicated 
and localized and brought to scale. We are already working with the 
Mayor and Schools Superintendent in Chicago to replicate P-TECH and to 
bring the model to other key industries as we scale the program. 
There's no reason why this approach can not be used in school districts 
across the nation to upgrade the STEM curriculum, provide new rigor to 
both the high school and community college programs and assure students 
that they will indeed be career- and-college-ready upon graduation.
    P-TECH, along with all of our initiatives, requires intensive 
partnership. We must work closely with our colleagues in public 
education to assure that we have deep and widespread reforms. Business 
partners, like IBM, bring a unique perspective on labor market needs, 
the skills gap, and the workplace environment. These issues must be 
integrated into all curriculum and professional development reforms if 
we expect to deliver on our promise to students that they will be 
prepared for good-paying careers and that many of them will be the 
leaders to grow the economy going forward. Thank you.

    Chairman Brooks. Thank you, Ms. Willner. We may have that 
opportunity towards the end, too.
    We next recognize Mr. Jason Morrella for five minutes.

          STATEMENT OF MR. JASON MORRELLA, PRESIDENT,

         ROBOTICS EDUCATION AND COMPETITION FOUNDATION

    Mr. Morrella. Chairman Brooks, Ranking Member Lipinski and 
Members of the Subcommittee, thank you for giving me the 
opportunity to appear before you today.
    Fifteen years ago, I began teaching at a continuation high 
school in San Jose, California, for students that were not 
succeeding at other area high schools. These students had very 
little desire to finish high school and very little confidence 
in themselves. The school was able to enter two different 
robotics programs thanks to grants made available by NASA. I 
was honored when the principal asked me to be the teacher and 
the coach for those teams, but I later learned that I was the 
equivalent of Mikey from the Life cereal commercials as the 
rest of the faculty had already passed on the offer and said 
ask the new naive teacher, Jason, he will do it. I probably 
should have known I wasn't the first choice because I was not a 
science or technology teacher, I was an English and social 
studies teacher, so I should have seen that coming.
    To make a long story short, I was in over my head, but 
thankfully, three amazing engineers from the NASA Ames Research 
facility volunteered their time to come to the school a couple 
days a week and work with us. With their help, we were able to 
build the robots for both programs and even won some 
competitions, but what mattered was the impact that the 
engineers had on those students. Previously, the students 
thought they just weren't smart enough to ever consider 
pursuing a career in STEM, but after working with those 
professionals, the students looked at STEM careers and their 
education in a new light.
    During the past 15 years, I have had the opportunity to be 
on almost every side of this topic. I have been a teacher 
working with mentors in various programs. I have overseen 
programs designed to encourage mentors to work with schools, 
and I now oversee the Robotics Education and Competition 
Foundation, which is dedicated to advancing science, 
technology, engineering, and math through robotics programs.
    Many of you probably have schools in your districts that 
participated in one or more of the great robotics programs that 
are out there: BEST Robotics, Botball, Underwater Robotics, 
FIRST Robotics or the VEX Robotics competition, which is now 
the largest and fastest growing middle and high school robotics 
competition in the United States and the world.
    There are many differences between these programs--cost, 
resources required, curriculum--but what is most important is 
what they actually have in common. They are all project-based 
STEM programs that excite and motivate students, and they are 
all volunteer-driven programs that rely on building a strong 
relationship in educational relationship and partnership 
between schools, teachers, parents, and professional mentors 
from industry. Competitions put the students and mentors in 
situations where they have a challenge to solve. They don't 
have the time they would like. They don't have the funding they 
would like, and they are competing against others who are 
trying to reach a better solution faster. It is real life.
    By working with and observing professional mentors, 
students see that problem solving is an iterative process, that 
in the real world, it is not just a matter of knowing the 
answer, it is how you work with others, how you communicate, 
how you innovate, and that you don't give up when an idea that 
you have doesn't work. Students can't learn these skills just 
in the classroom and by taking tests.
    While it is easy to focus on the knowledge that industry 
professionals possess, I would argue that it is their presence 
that has the most influence. They become role models, not just 
mentors. Students frequently look toward these mentors for 
advice and guidance. They ask them about colleges, to provide 
letters of recommendation, and are commonly listed as 
references on applications and job applications.
    An even bigger impact is that these mentors have helped 
redefine STEM fields and careers in the eyes of the students. 
They show students that normal people can be really smart and 
still be cool and that there are lots of interesting and 
exciting jobs out there waiting just for those kinds of people.
    Our foundation is very fortunate to work with some of the 
top corporations, government organizations, and academic 
institutions in our country who support STEM-based programs, 
companies like AutoDesk, EMC, Northrop Grumman, Microchip, and 
government agencies like NASA. They support these programs and 
encourage their employees to go into the classroom to mentor 
students, and the difference they make is incredible. They 
don't do it only because it is a good, responsible thing to do; 
they do it because it is in their best interest. They are 
worried about the future workforce and making sure that they 
can find enough qualified graduates coming out of college with 
STEM degrees.
    However, there are challenges associated with industry 
professionals getting involved in the classroom. I have seen 
industry mentors have a great deal of success working in the 
classroom but I have also seen situations where the experience 
did not go well. There are issues that can become significant 
barriers to becoming a classroom mentor, some of these being 
time, resources, experience or credentials, which I will be 
happy to expand on during the hearing.
    In closing, we need to engage, inspire, and prepare 
students to pursue science, engineering, and technology in 
higher education and as a profession. Getting industry 
professionals to volunteer or work with teachers and students 
is an invaluable tool to reach those goals. Whether it is a 
robotics competition or another hands-on project-based 
challenge, having real-life industry professionals work with 
schools makes STEM relevant to students, and relevancy drives 
engagement, inspiration, and action. Teachers, parents, 
mentors, and companies working together can help inspire and 
prepare students of today to become the science and engineering 
workforce of tomorrow.
    Thank you for the opportunity to speak to you today. I look 
forward to answering any questions.
    [The prepared statement of Mr. Morrella follows:]

          Prepared Statement of Mr. Jason Morrella, President,
             Robotics Education and Competition Foundation

    Chairman Brooks, Ranking Member Lipinski, and Members of the 
Subcommittee, I thank you for giving me the opportunity to appear 
before you today to speak about how STEM professionals can share their 
knowledge and experience to make an impact in education.
    During the past 15 years, I have had the opportunity of being on 
almost every side of this topic: I have been a teacher participating in 
STEM programs with and without professional mentor support, I have 
worked with various programs that are dependent on industry volunteers 
and professionals for their success, I have overseen programs 
specifically designed to encourage professional mentors to work with 
schools, and I now oversee a foundation dedicated to advancing science, 
technology, engineering, and math through robotic programs that inspire 
students to pursue STEM disciplines and careers. The Robotics Education 
and Competition Foundation exists to connect students, mentors, 
schools, and STEM-based programs in every community.
    I'd like to share a little bit about my background and the journey 
I've had from the classroom to working with all of these great 
programs. Starting 15 years ago, I began teaching at a continuation 
high school in San Jose, California, for students that had been kicked 
out of the regular high schools in the district for a variety of 
reasons. These students had very little desire to finish high school 
and very little confidence in themselves, in the system, or in their 
chances to succeed in society. To make a long story short, the 
principal enrolled the school in two different robotics programs, 
thanks to grants made available by NASA. I was honored when she asked 
me to be the teacher and coach for those teams. I later learned that I 
was the equivalent of ``Mikey'' from the LIFE ceral commercials, as the 
rest of the faculty had already passed on the offer and said ``ask that 
new (naive) teacher Jason; he'll do it.'' They were right, I agreed, 
and clearly didn't know what I had gotten into. When the kits and parts 
arrived, I knew that very first week that I was in over my head, but 
thankfully three amazing engineers from the NASA Ames Research Facility 
at Moffett Field volunteered their time to come to the school a couple 
of days a week and work with us. With the help of these very skilled 
mechanical and electrical engineers (Steve Kyramarios, Bob Homes, and 
Mark Leon), we were able to build the robots for both programs, were 
very competitive and even won some competitions--but what mattered was 
the impact the engineers had on those students. Those students saw 
Steve, Bob, and Mark as real-life rock stars--but through working with 
them realized they were normal, down-to-earth people who didn't know 
all the answers all the time, just people who worked hard to find the 
solutions and solve the problems. For the first time, those students 
looked at STEM professions as careers that real, normal people did. 
Previously they thought they just weren't smart enough to ever consider 
pursuing a career in STEM, but by meeting, observing, and working with 
these industry professionals, the students looked at those careers in a 
new light.
    Witnessing the impact that these hands-on technology-based programs 
could have on students and education was a life-changing experience for 
me, inspiring me to spend the next decade working to expand these 
robotics programs throughout California and the western United States. 
I've worked with various educational STEM programs, including BEST, 
FIRST, and the VEX Robotics Competition, now the largest and fastest-
growing middle school and high school education robotics program in the 
world. My passion to see these programs grow and become even more 
successful led me to my current position as the President of the 
Robotics Education and Competition Foundation. When I look back on that 
pivotal year, stumbling into robotics and working with those amazing 
NASA engineers who volunteered their time to share their knowledge with 
my students, I realize how different things could have been. Without 
the contributions of those mentors, that year would have been much more 
difficult, much less successful, and a less fulfilling experience for 
the students and myself. Without that experience, I would never have 
had the exposure and gained the insight into how important it is for 
students to engage in educational, hands-on STEM programs that include 
interacting with real-life professional mentors. That experience 
changed my outlook on what was important, what was needed, and what I 
wanted to focus my career on. What makes my journey a little more 
amusing to those who knew me more than 15 years ago is that I was not 
an engineer or scientist--when that principal asked that naive teacher 
to lead the robotics programs, I was teaching English and social 
studies, one year away from joining the San Jose Fire Department. I now 
have a much greater appreciation for the concept of serendipity, as 
that simple spur-of-the-moment decision in my 20s, to help some 
students build a robot for what I thought would only be a few months, 
ended up being a permanent fork in the road that completely changed my 
life.
    I come here today representing the Robotics Education and 
Competition Foundation and the various programs we support. BEST 
Robotics, Botball, Underwater Robotics, FIRST Robotics, the VEX 
Robotics Competitions--these are some the the incredible programs that 
we support. Many of you probably have schools in your districts that 
participate in one or more of these programs. The problem is that not 
enough schools are able to offer these programs, and that is what our 
foundation is committed to changing. Having these different programs 
available is important, because different schools need different 
options. Some of these programs are free or very low cost, some are 
extremely expensive and require lots of resources that many schools 
don't have, some are very educational and include curriculum, some are 
not classroom based, some are completely autonomous, some are all 
mechanical with no programming involved, and some are both. There are 
many differences between these programs, but what's most important, and 
what makes the REC Foundation want to support them and see them all 
grow, are two things that they all have in common. First, they are all 
hands-on project-based STEM programs that excite and motivate students, 
frequently igniting a desire for many students to pursue STEM degrees 
in college and careers in STEM fields. Second is that they are all 
volunteer-driven programs that rely on building a strong educational 
partnership between schools, teachers, parents, and professional 
mentors from industry. It is this exposure to STEM professions and 
careers, in and out of the classroom, that makes the impact of these 
programs so much more powerful and long lasting--not ony for the 
students but also for the teachers, parents, and professionals who are 
able to give back to their field of expertise.
    Industry professionals have a much bigger influence on students and 
teachers than they might initially understand. While it's easy to focus 
on the ``knowledge'' that they possess, I would argue that it is their 
``presence'' that has the most influence. Students and teachers are 
used to ``career day''-type exposures to professionals, where they hear 
what certain people do in certain fields. It's taking that next huge 
step to actually working WITH the students, mentoring them in a STEM 
challenge, and solving problems with them that makes the impact and has 
a long-term influence. In this way, these mentors help supplement and 
validate what the teachers have been telling the students--that the 
concepts matter and real careers are out there for people who learn 
these concepts and skills. When professionals work WITH students, 
instead of just lecturing students, they teach skills you can't just 
learn from a book. These professionals are able to demonstrate project 
management, time management, brainstorming, teamwork, and that solving 
a problem is a ``process,'' not just something smart people are 
genetically able to do. These professionals show students that even 
college graduates don't have all the answers, but they ``find'' the 
answers and solve the problems. Students are able to watch these 
professionals, talk to them, ask them questions, and most importantly, 
see that the fields they are in are interesting, stimulating, and 
actually ``possible'' to pursue.
    There are a few key reasons we at the Robotics Education and 
Competition Foundation focus a lot of our energy and resources into 
programs that also include a competition outlet in addition to just 
classroom education. Students are not lacking access to information--
between lesson plans, lectures, books, their teachers (and now Google), 
there is no shortage of knowledge for students to access. What students 
don't get enough of in school, and what is very difficult for teachers 
to provide, especially in these times of increased class sizes and 
slashed budgets, is an understanding of how what they are learning 
applies to real life and how to apply what they are learning to 
situations that happen in real time. Competitions put the students and 
mentors in situations where they have a challenge or problem to solve, 
with not as much time as they would like, and not as much funding as 
they would like, while competing against others who are trying to reach 
a better solution faster. Sometimes the competitors have more funding 
and more resources, sometimes they don't--either way, the only choice 
is to keep working as hard as you can to find the best solution you 
can, and when you don't have what you ``want,'' be innovative and find 
the best solution you can. The professional mentors are critical to the 
team's success because they show the students there are different ways 
to solve problems, that even when you think you might have solved the 
problem, you don't stop and you continue to look at different ways to 
improve upon your solution. By working with and observing professional 
mentors, students see that problem solving is an iterative process--
that in the real world it's not just a matter of knowing the answer, 
it's how you work with others, how you communicate, how you innovate, 
and how you don't give up when the idea you had doesn't work. You can't 
learn these skills in the classroom and/or on a test.
    As I said before, I don't think professional mentors really realize 
the role they play and true impact they have on students beyond the 
competitions and beyond the high school or college education of the 
students. Mentors take pride in the knowledge they share and pass on, 
as they should. They are aware of what challenge or problems the 
students faced and how they as mentors helped them find a solution. But 
it goes way beyond that. Students frequently look towards these mentors 
for advice and guidance, they ask them about colleges and options for 
academic advancement after high school. Mentors provide letters of 
recommendation for college applications and are commonly listed as 
references by students on job applications. These are not small things 
in the eyes of a student and show a great deal of trust and respect was 
developed. The bigger impact is that these mentors have helped redefine 
STEM fields and careers in the eyes of students. These mentors help 
break down stereotypes that only ``nerds'' and ``brainiacs'' can enjoy 
or succeed in science, technology, engineering, or math. These mentors 
show students that gaining knowledge in STEM can lead to very 
interesting, exciting, and rewarding careers.
    Think of the world our students are growing up in and all the 
stereotypes they are subjected to from early on and throughout their 
childhood. Cool kids are the sports captains or cheerleaders. 
Scientists are just strange geeks, normally crazy white men in lab 
coats. Athletes and TV stars are the heroes and role models that people 
cheer for and are celebrated in the media. No one knows or cares which 
students are on a spelling bee, mock trial, or academic decathlon team, 
but everyone cheers for the student playing football or basketball--and 
we're all guilty of it. If I asked everyone here today who won the 
Super Bowl last year or the World Series last week, the majority would 
know and could probably tell you at least three players on the team. 
But if I asked who won the Nobel Prize for Physics this year, who would 
know? Now I'm sitting before the Subcommittee on Research and Science 
Education, so I'm sure many hands would go up--but I didn't know, I had 
to Google it, and it turns out three United States-born astrophysicists 
won the prize.
    So how do robotics competitions and professional mentors change 
this? Robotics competitions make STEM education exciting and fun. They 
take the best aspects of sports (competition, teamwork, cheering fans, 
life lessons), combine that with intense education to develop a real 
tangible understading of science, tehcnology, engineering, and math, 
and show students all the fields and careers that the skills they are 
learning can lead to. Many students look at professional STEM careers 
as they do sports superstars--things they aren't athletic or smart 
enough to ever do themselves. But that's where they are wrong. With 
only a few thousand ``jobs'' available in the NFL or NBA, students have 
little to no chance of ever making a living playing sports, but they 
aren't aware that there are millions of jobs out there in STEM fields 
and that they do have the very real opportunity to achieve a career in 
STEM if they just pursue those paths academically. Imagine if the high 
school sports teams could have Joe Montana, Magic Johnson, or Willie 
Mays work with them as mentors and coaches. When teachers, parents, and 
professional mentors work with students in the classroom, that's what 
happens; students have the opportunity to be coached by the true 
``superstars'' of STEM. Imagine exposing students to a combination of 
Einstein, Michael Jordan, and Sally Ride . . . you've got a pretty 
impressive role model there, someone REALLY cool and REALLY smart who 
does some REALLY cool stuff with their knowledge in STEM. I've had the 
privilege of watching students get to meet and interact with people 
like Woodie Flowers from MIT (the true father of educational 
competitive robotics as we all know it today) and Dave Lavery from 
NASA. These are incredibly impressive and very busy men who go out of 
their way to work with students and model what a true mentor can and 
should be. That's the role these mentors have when they work hand in 
hand with teachers and students in these programs. They show students 
that normal people can be really smart, can still be cool, and that 
there are lots of interesting and exciting jobs out there waiting for 
just those kinds of people.
    I've been very fortunate to work with some of the top corporations, 
government organizations, and academic institutions in our country 
through the various programs I've worked with and the Robotics 
Education and Competition Foundation. Some companies have created 
incredible programs to support STEM-based competitions, both 
financially and by encouraging their employees to give back to the 
community and help mentor students. Companies like Autodesk, EMC, 
Northrop Grumman, Microchip, and government agencies like NASA--and the 
difference they make is incredible. They don't do it only because it's 
a good, responsible thing to do, they do it because it's in their best 
interest. They are worried about the future workforce and making sure 
that they can find graduates coming out of college with STEM degrees. 
However, just being ``smart'' isn't enough--they need employees who can 
communicate their ideas and work well with others, they need employees 
who have the ability to solve difficult problems with innovative ideas. 
They need employees who realize they are in a very competitive global 
economy and are passionate about their careers. Supporting these 
programs and having their professionals go into the classroom to mentor 
students is critical to creating a better, more qualified future 
workforce.
    A lot of students in middle school and high school don't have any 
idea what career they might want to pursue or even if they want to go 
to college or what they might want to study if they do go to college. 
But they know, from watching a lot of TV, that lawyers and doctors seem 
to make a lot of money and get on TV a lot. But if meeting and working 
with a professional engineer or scientist can expose some students to 
academic and career paths that they hadn't previously even considered, 
that's a great thing. If these mentors can inspire just one student at 
the school they work with, just one girl or boy who looks at that 
mentor as a role model and says ``I want to be like Mike'' and pursue 
an education and career in that field, then that's a great thing. Not 
every student who participates in these programs and works with mentors 
is going to pursue a STEM degree or career, which is fine. Working with 
mentors and participating in these programs will have a lasting effect 
on students, whether they enter a STEM field or not. The involvement of 
the mentors and the experiences gained in these programs will result in 
an increased awareness of science, technology, engineering, and math 
and a better, more educated understanding of how STEM issues impact us 
in our daily lives.
    And don't forget, companies know the power of branding and 
advertising. Students on these robotics teams remember the company of 
the mentor who helped support their team, and that positive brand 
association will be with them for many years, and companies know that. 
The biggest investment companies and organizations make is allowing 
their employees to donate their valuable time, energy, knowledge, and 
passion. Students getting the opportunity to work with teachers, 
parents, and professional mentors in project-based STEM programs are a 
much larger investment for companies and organizations than just being 
a sponsor on a banner. I've heard from more than a few companies that 
they found in post-hire surveys that some very sought-after prospects 
they hired, who had very strong offers from competitors, listed in 
their reasons why they chose the offer they did that they had been on 
the ``NASA/Innovation First/Autodesk'' Robotics team in high school and 
really liked the mentors they had worked with.
    There are a few different ways I've seen companies that have 
figured this out encourage their employees to support students and 
teachers in the classroom. Some give the employees X number of hours to 
volunteer at a local school during the day in the classroom. This could 
range from an hour a day to a couple of hours a week, to one day a 
month--whatever works for the employee and the school. Some will 
financially sponsor a team at a local school with many employee 
children attending and encourage the employees/parents to volunteer 
some time after work to work with the students. Some companies will get 
a group of employees to mentor together, so individually they each 
volunteer a little but collectively spend a lot of time in the 
classroom. Some employees may not be able to mentor during school 
hours, but they can volunteer for workshops or training sessions on 
weekends or as volunteers at events.
    Having industry professionals participate in the classroom has a 
number of very beneficial results. For one, the students get to meet 
real people with STEM-based jobs at real companies. This might sound 
simplistic, but think back to being a young student and what careers 
were considered glamorous and what things you ``wished'' you could be 
when you grew up. The answers haven't changed a lot over the years: 
professional athletes, movie stars, astronauts/pilots, policemen, 
firemen, doctors/vets. When kids get to middle school and high school, 
a very troubling thing starts to happen: students start to look at 
those ``dreams'' as unrealistic, unattainable, or intimidating. Many 
don't think they are smart enough, they don't see people like them 
(their ethnicity/gender) pursuing those fields, they think it takes too 
much work or an education that they can't afford, and frequently they 
aren't even aware of what fields are out there. Bringing industry 
professionals into the classroom tears all of that down--the students 
see real-life, normal people who have jobs in interesting fields. 
Students get to speak with and interact with these professionals, and 
they realize that they aren't that much different--yes, they know a lot 
and are smart, but what's eye opening for the students is that the 
professionals ``don't'' have all the answers, they just keep thinking 
and working until they ``find'' the answers.
    It's also important to involve industry professionals because they 
truly are ``mentors.'' Even though it's not true, students sometimes 
think parents and teachers do what they do because they ``have'' to. At 
a time in their lives where they want to question authority and 
sometimes don't trust parents or teachers, this other adult comes in 
who doesn't ``have'' to be there. The message that sends is very 
powerful, and students will frequently be open to listening when they 
think that person comes from the real world and is there because they 
``want'' to be there. These mentors can use this unique role to help 
the teacher, to reinforce that what the teacher has been ``teaching'' 
is important and will apply to life outside of school.
    There are challenges associated with industry professionals getting 
involved in the classroom. A big one is that the teacher and student 
are on their ``turf'' and have a comfort level with each other already, 
while the mentor can initially feel like a fish out of water. A 
classroom is a much different environment than the workplace--there may 
not always be an understood and respected hierarchy. At work, employees 
and co-workers listen to their bosses (or at least respectfully pretend 
to), but in a classroom there are plenty of students (employees) who 
don't listen and don't try to pretend they are listening. To use the 
analogy of a ship--a company is kind of like a cruise ship, with lots 
of co-workers working together to make sure the customers get from 
point A to point B in the most pleasant and productive way possible. 
But in the classroom, that cruise ship is more like a pirate ship (with 
some leaks)--there are no co-workers or support structure, you're the 
captain, and sometimes you're just hoping you can get the crew (the 
students) to land before they sink (or mutiny). Industry professionals 
coming to work with students in a classroom need to exhibit many 
important attributes beyond just their specific knowledge base and 
skill set--they need to demonstrate patience, communication, 
compassion, and resolve.
    I have seen industry mentors have a great deal of success working 
in the classroom and with students, but I have also seen situations 
where the experience did not go well and a professional mentor without 
any teaching experience had a very difficult time making a positive 
impact on the students. There are issues that can become significant 
barriers to industry professional or parent volunteers becoming a 
classroom mentor, some of these being time, resources, credentials, and 
experience, so I will briefly speak to each of those:

    <bullet>  Time: Any mentorship is valuable. It's important that 
industry professionals do what they can and don't try to do too much. 
If they feel there's too great a time burden and expectation, they 
might not get involved even in a limited way. If they can give a few 
hours every week or two, great. The key is to get involved and then 
they will gradually adapt and determine if they can give more time.

    <bullet>  Resources: Industry professionals are used to having 
basic supplies and support materials, or having a deparment or budget 
to get resources when needed. That's frequently not the case, 
especially right now in the average U.S. classroom. It can be very 
overwhelming to try to mentor a class of students in a program that you 
then find out the school doesn't have the funding to support. The key 
is to help the teacher and students in whatever way you can. Let the 
school worry about the funding, and if a certain program is too 
expensive, then find a less expensive and more sustainable program for 
the students to participate in. There are MANY great STEM programs out 
there that all offer great experience for the students. Industry 
mentors need to focus their time working with the students with their 
knowledge and expertise, they should not feel like they need to be 
fundraisers and burn themselves out trying to do more than they 
originally signed on for.

    <bullet>  Credentials: There's always a lot of talk about getting a 
teaching credential or bypassing the process so a professional can 
start working with students right away. I think the key is to find 
creative ways to address the unique situation of the available mentor. 
If an industry professional wants to vounteer part time but not full 
time, the sports model can work--much like coaches for sports teams. 
They don't need a credential, but they can coach the team. A system 
like that can work, with stipends to partially compensate them for 
their time.

    <bullet>  Experience: A classroom environment and a work 
environment are like two different worlds. Being successful in one 
doesn't guarantee success in the other. It takes time to learn many of 
the subtleties of teaching 30 students, how to communicate with them as 
a group and individually when there isn't a cubicle or ``private'' 
meeting room available. The working relationship between the teacher 
and the industry professional is critical. If the professional wants to 
get a credential and go into teaching full time, then plan a transition 
to shadow and/or mentor with a teacher for a year while working on a 
credential. There's no training like being in the classroom, but always 
do it with an experienced teacher to start, and don't try to jump right 
into teaching if you've never done it before. That's not a recipe for 
success for the mentor and, more importantly, for the students.

    In closing, we need to engage, inspire, and prepare students to 
pursue science, engineering, and technology in higher education and as 
a profession--getting industry professionals to volunteer or work with 
teachers and students is an invaluable tool to reach those goals. 
Whether it's robotics competition or another hands-on project-based 
challenge, having real-life industry professionals work with schools 
makes STEM relevant to students, and relevancy drives engagement, 
inspiration, and action. At the Robotics Education and Competition 
Foundation, our goal is to continue to support the top STEM-based 
competition programs that are educational, affordable, and accessible. 
To engage industry to work with schools, to get real professional role 
models working with students is to show them there are exciting 
academic and career opportunities ahead of them.
    Corporations have the most to gain from investing in programs like 
the VEX Robotics Competition, BEST Robotics and others that help 
movtivate students to pursue academic excellence and prepare students 
for the workforce. If every corporation were to allocate some of the 
resources that they use on recruiting efforts and community involvement 
and reinvest those funds into these programs, they would gain enhanced 
exposure for their company, they would be giving back to their 
community, and most importantly, by investing in these students at an 
early age, corporations would gain immediate access to some of the best 
and brightest minds from which to pull talent when it comes to 
workforce development. Supporting robotics and finding ways for 
professional mentors to work with students in and out of the classroom 
creates a lifelong learner that is actively involved in building their 
21st century skills in addition to developing their expertise in the 
fields of STEM, qualities that all good employers need and want when 
they look to bring a talented new hire on board.
    Thank you for the opportunity to speak to you today about the value 
of transferring knowledge from the workplace to the classroom through 
industry professionals. Teachers, parents, mentors, and companies 
working together can help inspire and prepare the students of today to 
become the science and engineering workforce of tomorrow.

    Chairman Brooks. Thank you, Mr. Morrella.
    The Chair now recognizes our final witness, Dr. Jennifer 
Jones, for five minutes.

                STATEMENT OF DR. JENNIFER JONES,

         PRINCIPAL CLINICAL SCIENTIST, ABBOTT VASCULAR

    Dr. Jones. Thank you to the Subcommittee for this 
opportunity to speak today. I am Dr. Jennifer Jones, a 
Principal Clinical Scientist at Abbott in Santa Clara, 
California. Abbott is a global, broad-based health care company 
devoted to the discovery, development, manufacturing, and 
marketing of pharmaceuticals and medical products.
    I am here today because I have a passion for science and 
science education and the impact that we as science 
professionals can have on our community. I know firsthand what 
it feels like to work with children and parents who have never 
met a real scientist, to see the excitement in their faces when 
they realize a real scientist can actually look like them. I 
see the profound impact that mentoring has on my colleagues, 
and because of my own positive experience with mentors, I 
believe we have an obligation to serve the generations to come, 
and I am pleased to be part of a program that provides a solid 
framework for the effective mentoring.
    The science education program at Abbott and at the Abbott 
Fund, our philanthropic foundation, are an example of the kind 
of public-private partnerships that can serve as a catalyst, 
inspiring an interest in science in young people, teachers, and 
enriching the professional lives of scientists. By engaging in 
rigorous research and thorough preparation, we offer programs 
that have a long-lasting impact on the participants involved. 
These partnerships are critical in leveraging existing 
effective delivery models and for providing expertise and 
innovative science content and exposure to STEM careers.
    I see on a daily basis the need for innovation in solving 
some of the greatest problems that face us as a Nation and as a 
global community, yet we are lagging behind developed 
countries. In the Program for International Student Assessment, 
PISA, rankings, the United States is average, low behind top 
performs such as Canada, Finland, Japan, and China. We are 
average, yet average will not work in solving the 21st century 
problems.
    As Secretary of Education Arne Duncan stated after the 
release of the rankings, ``Being average in reading and science 
and below average in math is not nearly good enough in a 
knowledge economy where scientific and technological literacy 
is so central to sustaining innovation and international 
competitiveness.''
    Even more sobering is a large gap in United States rankings 
between low socioeconomic students and their high socioeconomic 
classmates. We need these students not only to be better than 
average at math and science but we need them to be better, more 
knowledgeable, and more innovative than those of us in science 
today.
    The Global Science Forum of the Organization of Economic 
Co-Operation and Development, OECD, advocated that providing 
positive exposure to science at an early age is critical to 
inspiring future interest.
    I know firsthand the impact of bringing scientists directly 
together with families from underserved communities. One of the 
schools we work with is Brookfield Elementary School in 
Oakland, California. They are an example of a school that 
struggles to provide the basic resources, much less serving as 
an inspiration for their students. The day prior to our first 
program, they were robbed of all their electronic and computer 
equipment, yet we still had the event bringing together 
scientists and families. The principal, Adam Taylor, has seen 
an increase in participation of parents in their children's 
education, an increase in the willingness and comfort of 
teachers to work with scientific activities with their 
students, and an increase in the school's overall science 
scores.
    For an event such as this to be effective, we recognize the 
need to invest in professional development that can prepare our 
scientists to effectively serve as mentors. The Abbott and 
Abbott Fund programs span the K-12 STEM learning spectrum. The 
Abbott Family Science Program starts in elementary school and 
encourages the critical parent-child interaction around 
science. Abbott scientists and volunteers serve as 
facilitators. Abbott Operation Discovery brings middle school 
students together with scientists in a working lab environment 
to engage in hands-on experiments that complement the school 
curriculum. We also support Project Exploration, a nonprofit 
organization serving minority and female students at a time 
when they are most vulnerable to losing interest in science, 
technology, engineering, and math.
    High school students are served by programs such as After 
School Matters, a Chicago-based after-school internship 
program, and the FIRST Robotics program. Abbott scientists 
again serve as facilitators and mentors for these programs.
    Our support includes a presence in science and children's 
museums where a broad range of public audiences can be reached. 
The new traveling science exhibition, Science + You, for young 
children was created in partnership with the Kohl Children's 
Museum, and scientists were actively involved in the 
development of exhibits and serve as active activity 
facilitators. Collectively, these programs have reached 
millions of students, parents, and teachers.
    The Abbott Fund has invested in a program structure based 
on training best practices and our rigorous understanding of 
the impact on the program's participants. The methodology 
applies to the professional development we provide to 
scientists as well as the evaluation of the impact of the 
programs on the participants. Best practices identified in 
national projects and informal science education field are 
continuing being applied to our training model for scientists. 
We encourage active student and family engagement and discovery 
of science rather than giving lectures and demonstrations. We 
modify programs based on the particular needs of the community, 
and this model increases Abbott's scientists' capacity to train 
other volunteers and serve as internal and external 
ambassadors.
    Regarding the program impacts, we have found significant 
change in participants' interest in science following 
participation in Abbott Family Science and Operation Discovery. 
Abbott Family Science has shown to increase participants 
reporting more likelihood of engaging with scientific 
activities from 39 percent to 84 percent.
    Lastly, in closing, recently an Abbott colleague had a 
comment about people he has mentored: ``These people are now 
better than me, and that is the way it should be. That is what 
we should be striving to, enabling our students, our children 
to be better to us, to accomplish more than we could ever 
imagine.'' So we hope that this testimony will serve as an 
example of identifying the most effective ways to prepare STEM 
professionals for effective and transformational interactions 
with students.
    Thank you.
    [The prepared statement of Dr. Jones follows:]

               Prepared Statement of Dr. Jennifer Jones,
             Principal Clinical Scientist, Abbott Vascular

    Hello, I'm Jennifer Jones. I am a Principal Clinical Scientist at 
Abbott Vascular in Santa Clara, California. I have a Ph.D. in 
kinesiology with an emphasis in exercise physiology, hypertension, and 
genetics. Abbott is a global, broad-based health care company, 
headquartered north of Chicago, Illinois, devoted to the discovery, 
development, manufacture, and marketing of pharmaceuticals and medical 
products, including nutritionals, devices, and diagnostics. The company 
employs nearly 90,000 people and markets its products in more than 130 
countries. At Abbott Vascular, I am the lead clinical scientist for the 
phase III Investigational Device Exemption (IDE) trial to support the 
United States approval of a new coronary artery device technology. 
However, I have also been privileged to provide leadership in one of 
our major volunteer efforts, Abbott Family Science.
    I am here today because I have a passion for science and science 
education and the impact we as science professionals can have on our 
community. I have experienced firsthand what it feels like to work with 
children and their parents who may have never met a ``real'' scientist. 
I have seen the excitement in their faces when they learn that a 
scientist may be someone who looks like them. And I see the profound 
impact that mentoring experiences have on my colleagues as they gain 
valuable skills in learning how to translate both their knowledge and 
interest in science to people in their community.
    I have experienced continued scientific and personal growth 
throughout my development and career with the help of mentors who have 
exposed me to scientific areas that were initially not in my vantage 
point. Through these relationships I realized how limitless our 
potential for intellectual and personal growth can be. I believe that 
many of us have an obligation to serve as mentors to the generations to 
come and am pleased to be part of a professional program that provides 
a solid framework for effective mentoring opportunities.
    The science education programs of Abbott and the Abbott Fund, 
Abbott's philanthropic foundation, are an example of the kind of 
public-private partnership that can serve as a catalyst, inspiring an 
interest in science in young people, enriching the professional lives 
of scientists, and inspiring teachers. By engaging in both rigorous 
research and thorough preparation, we can develop programs that have a 
long lasting impact on the communities and people involved. By 
developing strong community collaborations, we can ensure that the 
programs we offer serve students who are most in need of programs that 
complement their school offerings.
    Private-public partnerships are critical for leveraging existing 
effective delivery models, and for providing expertise and innovative 
science content based on authentic science experiences, interaction 
with working scientists, and exposure to STEM careers. Through this, we 
are not only giving our children the best possible opportunities, but 
also ensuring that they will have the tools, creativity, and 
inspiration they need to continue to transform their own communities 
and the world.

Overview of Need

    As a working scientist, I see on a daily basis the need for 
innovation in solving some of the greatest problems we face, as a 
Nation and as a global community. To address those problems, we need to 
cultivate and nurture the next generation of scientists, yet we are 
lagging behind other developed countries in these efforts. Perhaps 
nowhere is that need more apparent than in the U.S. rankings in the 
Program for International Student Assessment (PISA) measurement. In the 
2006 and 2009 ranking, the U.S. was ranked as average, below top 
performers like Canada, China, Finland, and Japan. We are average, yet 
``average'' will not work in solving 21st century problems.
    U.S. Secretary of Education Arne Duncan stated after the release of 
the PISA rankings, ``Being average in reading and science--and below 
average in math--is not nearly good enough in a knowledge economy where 
scientific and technological literacy is so central to sustaining 
innovation and international competitiveness.''
    Even more sobering is the large gap in U.S. rankings between low 
socioeconomic status students and their high socioeconomic status 
classmates. While our white and Asian students perform about as well in 
science and math as the average student in high-performing countries 
like Canada and Japan, our Latino and African American students perform 
at lower levels.
    We need a fully engaged and scientifically literate society. We 
need these students not only to be better than average in math and 
science, but also to be better, more knowledgeable, and more innovative 
than those of us working in the sciences today.

Science Professionals as Mentors

    A 2006 Global Science Forum of the Organization for Economic Co-
Operation and Development (OECD) advocated that providing positive 
exposure to science at an early age is critical to inspiring future 
interest. A recent 2011 study published in the Journal of Science 
Education found that the most promising route to generating more 
college graduates with STEM degrees is not enrolling them in more 
advanced science and math courses, but simply doing more to spark their 
interest at an earlier age.
    Beyond the statistical evidence, I have seen firsthand the impact 
of bringing scientists together to work directly with families in 
underserved communities. One of the schools we work with, Brookfield 
Elementary School in Oakland, California, is an example of a school 
that struggles with providing basic resources, much less serving as an 
inspiration for its students. The day prior to our very first program 
at this school a few years ago, the school had been robbed and gutted 
of all electronic and computer equipment. Yet we held the event, 
bringing together working scientists and families, and for that school 
began a process of transformation with more engaged parents, more 
engaged teachers, and kids who started to envision science careers as a 
possibility. For Brookfield Elementary, the principal, Adam Taylor, has 
seen an increase in participation of parents in their children's 
education, an increase in the willingness and comfort of the teachers 
in engaging in hands-on experiments with their students, and an 
increase in the school's overall science scores.
    We know that these types of transformational moments do not happen 
by accident. For the event to be effective, we recognize that we need 
to invest in professional development and training that can prepare our 
scientists to effectively serve as mentors in these and other programs.
    As a company that values science, Abbott recognizes that one way to 
provide this positive exposure to science and science professionals is 
to get working scientists and students together. The Abbott Fund 
established the science education programs to work with students in a 
variety of settings, from classrooms and actual working labs to science 
museums and festivals. Abbott scientists lend their expertise to these 
programs to help cultivate an interest in science learning.
    These programs look to spark an interest in science among young 
people to inspire the next generation of scientists and to foster a 
better understanding of science and a richer appreciation of the value 
it brings to improving human health. Engaging and inspiring students, 
families, and schoolteachers in scientific exploration, these programs 
deliver vital educational science opportunities in informal settings. 
We create a culture for students in which their interest in science is 
encouraged, including through real-world experiences beyond the 
classroom.
    The Abbott and Abbott Fund Science Education Programs span the K-12 
STEM learning spectrum, starting early to spark that interest. The 
Abbott Family Science program starts in elementary school and 
encourages parent-child interaction around science with Abbott 
scientists and volunteers serving as facilitators. Research has shown 
that at this age, it is crucial to encourage parental involvement and 
engagement.
    For middle school students, we offer the Abbott Operation Discovery 
program, which brings students together with scientists in a working 
lab environment to engage in hands-on science experiments that 
complement school curriculum. Also receiving support is Project 
Exploration, a non-profit organization serving minority and female 
students at a time when they are most vulnerable to losing an interest 
in science, technology, engineering, and math.
    High school students are served by programs such as After School 
Matters--a Chicago-based after school internship program--and FIRST 
Robotics--a global afterschool science and engineering program. Abbott 
scientists serve as frequent mentors and advisors in both programs.
    Our support includes a presence in science and children's museums, 
where a broad range of public audiences can be reached. One example is 
the recent development of a new traveling science exhibit in 
partnership with the Kohl Children's Museum in Illinois. The Science + 
You exhibit is specifically designed for children ages eight and under, 
giving them a positive early exposure to science labs and scientists. 
There are very few exhibitions of this nature for this age group. Thus 
the exhibition is in high demand and will be traveling to DC, San 
Francisco, and other U.S. and international locations. Abbott 
scientists were actively involved in the development of the exhibits 
and serve as volunteer demonstrators, reaching visitors directly. In 
each locale, Abbott scientists will present live demonstrations and 
science activities.
    Collectively these programs have reached millions of students, 
parents, and teachers worldwide. While we are pleased with the numbers 
of individuals we are reaching, we know as a science company that 
thorough and rigorous evaluation of effectiveness and impact is key to 
the programs' continued success.

Creating an Effective Program Framework

    The Abbott Fund has invested in a program structure based on best 
practices and a solid understanding of the impact on the program 
participants. This methodology applies to both the training and 
professional development we provide to participating scientists, as 
well as to evaluation and assessment of the impacts of the programs on 
students, parents, and teachers.
    We have learned a great deal since we began to offer these programs 
more formally in 2005. Traditional programs that place a scientist in a 
classroom or museum setting are not necessarily beneficial to the 
student or the scientist. Often the scientist needs guidance, not only 
in how to convey content but also in how to communicate passion and 
enthusiasm. Training and professional development has been provided for 
scientists on how to do just that.
    In order to apply best practices in training and professional 
development, the Abbott Fund has participated in national projects and 
conference sessions focused on preparing scientists for working with 
the public in informal settings such as after-school programs and 
science museums. Best practices identified in these settings are 
continually being applied to Abbott Fund training models for 
scientists. These models are designed to prepare the scientists to work 
as facilitators and guides for families and students. We particularly 
train the scientist to encourage active student and family engagement 
in science discovery, rather than simply providing demonstrations or 
lectures.
    The training increases the capacity of Abbott scientists to serve 
as trainers for future volunteers and to serve as internal and external 
ambassadors for the programs. In addition, the skills developed and 
enhanced are beneficial not only to scientists' volunteer efforts but 
also to their ability to communicate and work together effectively in 
the workplace. For us, we believe our scientists learn valuable lessons 
working with, and within, their community.
    Of course, a solid understanding of the impact and effectiveness of 
programs is key to making a difference. Not only are the programs 
evaluated for their effectiveness, we modify programs based on the 
particular needs of the community, whether it is the need for 
translators at an event or helping to provide transportation for 
families who may need it. We are currently adapting the Abbott Family 
Science model to work in a very large festival setting. I am bringing a 
group of scientists to participate in the first-ever free Bay Area 
Science Festival, and we expect to interact with thousands of visitors.
    For the Abbott Family Science and Operation Discovery programs, an 
analysis of findings from programs found significant change in the 
participants' interest in science following participation in the 
programs. In the case of Abbott Family Science, only 39% of 
participants reported they were likely to engage in science exploration 
as a family prior to attending an event, compared to 84% of the 
participants after the event.
    I hear from my colleagues that giving back to the community is more 
than a ``feel-good'' opportunity. I recently heard a soon-to-retire 
Abbott colleague's perspective on being a mentor. Now that he is at the 
end of his career, he looks back at the people he has mentored over the 
years. What he said struck me; ``These people now are better than me, 
and that is the way it should be.'' That is what we should be striving 
to do, enabling our students, our children, to be better than us, to 
accomplish more than we ever could imagine.

REFERENCES

    Abbott Fund, www.abbottfund.org.

    David Heil & Associates, Inc. ``Abbott Family Science and Abbott 
Operation Discovery: 2009-2010 Program Evaluation.'' January 2011.

    Duncan, Arne. ``Statement on the Results of the Program for 
International Student Assessment.'' U.S. Department of Education, 
December 7, 2010. www.ed.gov.

    Maltese, A.V, Tai, R.H., ``Pipeline persistence: Examining the 
association ofeducational experiences with earned degrees in STEM among 
U.S. students,'' Science Education, May 2011.

    Michigan State University, ``Parents still major influence 
onchild's decision to pursue science careers,'' ScienceDaily, February 
21, 2010.

    Organisation for Economic Co-operation and Development (OECD), 
``Evolution of Student Interest in Science and Technology Studies 
Policy Report,'' Global Science Forum, May 2006.

    Stephens, Laura. ``Ed Trust Analysis of 2009 PISA Results: United 
States Is Average in Performance, but Leads the World in Inequity,'' 
The Education Trust, December 10, 2010. http://www.edtrust.org.

    Chairman Brooks. Thank you, Dr. Jones.
    I would like to thank the entire panel for their testimony, 
reminding members that the Committee rules limit questioning to 
five minutes. The Chair will at this point open the round of 
questions, and I recognize myself in that regard.
    My first question is directed to Mrs. Sutton. Mrs. Sutton, 
interacting with other more conventional teachers, have you 
found that your teaching style and tools are different because 
of your industry experience from outside the classroom, and if 
so, how?
    Mrs. Sutton. Yes. Thank you, Chairman Brooks. Yes, I have 
found that I do have--I do employ a number of different 
techniques that they don't use. I feel more comfortable in 
developing targeted interventions. I can use different kinds of 
software applications to pull together tests that are not just 
straight from the curriculum but can be custom-made, and I also 
deliver my lessons with some animation and some different kinds 
of things that attract the students and keep their attention 
while I am trying to teach them while they don't even notice 
they are being taught.
    Chairman Brooks. As a follow-up, how much freedom are you 
given to either alter or expand your curriculum, if any?
    Mrs. Sutton. Oh, I am given tremendous freedom. We have a 
mandate that we have to help these kids gain proficiency, and 
now they are in high school, they have to pass graduation exam, 
and we know where they are weak. We test them regularly and we 
are called to do whatever it takes to bring them up to the 
level they need to be. In my computer science and the 
cybersecurity classes, I get free rein to do whatever I think I 
need to bringing projects in from my industry experience and 
from my peers so that I can enrich what is going on in my 
classroom.
    Chairman Brooks. Thank you.
    Dr. Beeth, in your testimony you mentioned that act! 
partners with the Wisconsin Department of Public Instruction to 
increase the number of math and science teachers in Wisconsin. 
Can you tell us more about the relationship between the 
Department of Public Instruction and act!?
    Dr. Beeth. The Department of Public Instruction in 
Wisconsin approves all teacher licensure programs so they 
actually are encouraging some alternative pathways. There are 
12 alternative programs in the State of Wisconsin at this time. 
Act! is the only one that is devoted exclusively to math and 
science while some of the others do as well. so they are 
primarily an approval body but also a body that is trying to 
stimulate more of this kind of work.
    Chairman Brooks. Was it complicated to obtain approval from 
the State of Wisconsin for the act! alternative certification 
program, and also in that regard, can you explain the process?
    Dr. Beeth. It wasn't complicated, but being in a college of 
education and human services, we do these kinds of things on a 
fairly regular basis so we are familiar with the process, and 
the second part of your question?
    Chairman Brooks. I will go back to it. Can you explain the 
process?
    Dr. Beeth. You have to apply and you have to indicate who 
will be involved in teaching these individuals, what their 
credentials are, what the curriculum will be for the program, 
how you will support the program to get it started budgetarily 
and in the event that the program is not successful and 
students remain in the program. We go through a review process 
annually. We have a visit from a liaison from the Department of 
Public Instruction who comes to hear about where we are at in 
our program. We have formal reviews that occur periodically as 
well.
    Chairman Brooks. Thank you.
    And Ms. Willner, you had wanted some additional time to 
complete your remarks. Go ahead.
    Ms. Willner. Thank you very much.
    Chairman Brooks. Microphone on.
    Ms. Willner. Thank you very much, Chairman. I appreciate 
that. I just did want to add that in addition to Transition to 
Teaching, which has been so successful and brought so many 
great IBMers into the community, we have recently started a 
program. Just this September, we launched a new school in 
Brooklyn, New York, in collaboration with the city of New York, 
the Department of Education, the City University of New York. 
It is a unique model that goes from grades 9 to 14, so the 
students actually receive a high school diploma and an 
associate's degree and will be prepared to take a job that 
leads to a good-paying career in the IT industry. We have 
actually mapped our job skills for real jobs that we hire at 
IBM with an associate's degree and worked with the faculty to 
make sure that the young people will be prepared. So we think 
that that is the essence of making real on the promise to our 
children that they will be college and career ready, and we are 
now starting to replicate the model in Chicago working with 
Mayor Emanuel, and we are hoping to be putting out a range of 
tools and playbooks on exactly how to use this model to 
energize secondary and postsecondary education around the 
country.
    Chairman Brooks. Thank you, Ms. Willner.
    The Chair's time is about to expire. With that, I recognize 
Mr. Lipinski for his five minutes.
    Mr. Lipinski. Thank you, Mr. Chairman.
    I want to start with Dr. Jones. Certainly, we are here to 
learn about how we can really help scientists make a successful 
leap from scientists to classroom mentor or to teacher. I just 
wanted to ask you what best practices are taught in order to 
help Abbott scientists make that leap. And I also wanted to see 
what recommendations you might have along those lines for what 
the Federal Government could do to support scientists at our 
national labs doing something similar.
    Dr. Jones. Okay. Well, I can answer the first part of the 
question. So as we talked about applying best practices and 
training, and so what the Abbott Fund has done is participate 
in the national projects which detail specific critical 
elements that will help scientists such as myself make that 
transition. We are doing informal settings. Therefore, we learn 
to take our knowledge and what we know and convey it and apply 
it to a setting of students in schools or outside the schools 
such as in museums, such as some of the museum projects that I 
talk to in collaboration with the Kohl Children's Museum.
    Now, regarding what the Federal Government can do, I don't 
believe that I can actually speak on that.
    Mr. Lipinski. I just assumed that there probably--you have 
people with similar backgrounds, they just happen to be working 
for the Federal Government. What types of things that Abbott 
does, that the Federal Government may also do as an employer to 
help, you know, federal scientists make that same sort of--do 
that same sort of work?
    Dr. Jones. Well, and some of the ideas, what we have used 
in our models is, one thing that is key is teaching scientists 
to use their personal experience as an example for the student. 
We have to remember that in the classrooms sometimes, science 
can be very abstract to all of us, but with programs such as 
Abbott Family Science, we are able to take that abstract and 
apply it to the real world and what many of us do on a regular 
basis. So again, taking the best practices, taking the tools 
learned from many of these national projects, from the agencies 
that actually teach in formal science education and then 
applying that to those employees who will be serving as 
volunteers in those classroom or outside of the classroom 
settings.
    Mr. Lipinski. Thank you.
    I want to move on to Ms. Willner. You had mentioned, and 
you had the opportunity to talk more about this in the 
questioning from the Chairman about P-Tech, and I am happy to 
hear about P-Tech being replicated in Chicago. Can you tell me 
what types of skill sets P-Tech focuses on and what jobs you 
hope that they will fill?
    Ms. Willner. Great. Thank you very much. So we started out 
the program by actually looking at IBM, and we identified every 
single job where we would hire with an associate's degree, and 
we know from some of the research actually that you quoted that 
even students with an associate's degree in a STEM area will 
earn more than their colleagues who get a bachelor's degree in 
another non-STEM area. So that is really fruitful. And we 
didn't include minimum-wage dead-end jobs; we only looked at 
entry-level jobs that would really lead to a career, start them 
on the path to a career so they could raise a family. That is 
our benchmark. They will be working in support. Some of them 
will be doing customer support. Some of them will be doing 
programming, Web site design.
    There is a whole range of programs and so we are working 
with the faculty to look at exactly those skills, both the 
rudimentary math and science, the engineering, the programming. 
But most exciting in this program is that they are also taking 
a work-based competency strand starting in ninth grade. Every 
one of them has an IBM mentor. They will start visiting IBM 
sites in two weeks. They are going to be coming to IBM 
research. They will actually--we are working with the State 
education department to get approval to get credit-bearing 
workplace experience, because we believe that when these young 
people come to an IBM site, not just to shadow somebody but to 
actually solve a problem, do some work, that should help them 
earn credits. So it will be a very integrated program, rich in 
academics, rich in workplace environment. They are going to 
learn how to take supervision, work in teams, and they are 
going to be excited about knowing that every day they are 
getting closer to a real career.
    Mr. Lipinski. Is this because IBM is having trouble finding 
people, workers in the United States, who are qualified? Is IBM 
outsourcing jobs because you can't find workers here in the 
United States who are qualified?
    Ms. Willner. Well, you know, I think this is a worldwide 
problem. We are always looking for the best employees. They 
need to have great skills, and as I mentioned before, we want 
those leaders who will actually invent the next best thing and 
take us to the innovation. So, you know, everywhere that IBM 
has a business, we are looking to help with education, But 
absolutely in the United States where our roots are, where we 
are headquartered, where we have been for 100 years. We want to 
make sure that we continue to be a leader, and that means we 
need to invest in education here and every State.
    Mr. Lipinski. Thank you.
    My time is up. I will yield back.
    Chairman Brooks. The Chair next recognizes Mr. Bartlett of 
Maryland for his five minutes.
    Mr. Bartlett. Thank you.
    Next year will be the 60th anniversary of my doctorate in 
science from the University of Maryland, and I already had four 
years of full-time teaching experience when I got my doctorate. 
I went to Washington Missionary College in 1943 with no 
interest in science. I was going to be a medical missionary, 
and to be that, I had to have a degree in theology, which I 
acquired, and I had to go to medical school, so I took some 
pre-med courses. I had a really good teacher, a Dr. Freeman 
Quimby, who ended up the Chief Scientist at Library of 
Congress, and I was so inspired by his teaching that I took all 
the courses he offered and enough more courses that when I 
graduated in 1947, I had a major in Bible, a minor in 
homiletics--that is theology--and I had a major in biology and 
minor in chemistry. I was 21 years old. I looked 17. I had 
decided to go into the ministry, but you don't have much an 
immediate bright future in the ministry looking 17 and not 
being married. So they suggested I go to graduate school until 
I got older and got married, and I was there for five years and 
got my doctorate. That was one teacher who changed a life.
    My youngest of 10 children was really a problem. He 
wouldn't study. Immediately when he got home he went out to the 
shop to make toys with our saws out there. Every year we would 
argue, should we hold Ross back, he is really doing just awful, 
and then Ross had a science teacher in the seventh grade. He 
got turned on. He found that he really could do it. He got 
inspired. Ross ended up number one of 185 graduating engineers 
at UMBC and went on to get his doctorate at Carnegie Mellon. 
Here was another life that was drastically changed by a good 
science teacher.
    We have another son who was a blue baby at birth, and Fred 
was in school where they spent three times as much on his 
education as they did on Ross's education. We almost lost Ross. 
He could have ended up a druggie somewhere. We are just so 
darned lucky for that teacher that turned him on.
    I worked eight years for IBM, by the way.
    Ms. Willner. Great.
    Mr. Bartlett. Just a little anecdote. That was a very 
different IBM than you are familiar with. Dr. Pete Castrucio 
was starting a new department, and he would go out without 
collaboration with the personnel office and he would hire 
people so the personnel would walk around and when they saw a 
new face they would introduce themselves and the person would 
say oh, I just started working here for Dr. Pete Castrucio; 
well, you maybe ought to come to the personnel office and sign 
some papers so you will get paid then.
    I transitioned from IBM. I went from teaching in basic 
research to the engineering world where I was awarded 20 
patents, and I culminated that with my career at IBM and I 
transitioned back to teaching. Even then, 36 years ago this 
year, IBM was very interested in transitioning people back to 
teaching, and so you have a long, long career in doing that.
    This year the Chinese will graduate seven times as many 
engineers as we graduate. Half of our graduating students here, 
about half of them are Chinese students. We face a huge 
challenge. There is no way that we are going to continue to be 
the premier economic and military power in the world if a 
potential adversary competitor is graduating seven times as 
many engineers as we are graduating.
    The fundamental problem in our country is a cultural 
problem, and I am going to ask you to submit something for the 
record because you won't have time in my allotted five minutes, 
but the problem we have here is a cultural problem, that people 
who go into these pursuits are not appreciated. Bright young 
men are called geeks and nerds. They were squares, by the way, 
when I was going to school and now they are geeks and nerds and 
pretty girls won't date them, and bright girls play dumb to get 
a date. You know, this just isn't very bright for a culture, is 
it? When was the last time you remember the White House 
inviting an academic achiever there and slobbering all over 
them the way they do sports figures and entertainers? Before we 
have our best and brightest students go into careers in 
science, math, and engineering, they are going to have to 
believe that this is something appreciated by their society. It 
is not. We have got to change that. We are at risk as a country 
if we can't change that.
    Please, for the record, would you provide some counsel to 
us as to what we might do from this Committee to help in 
changing this culture in our country so that this is--our 
brightest and best students now are increasingly going into law 
and political science? I tell them, these are potentially 
destructive pursuits. We have enough of both of those, thank 
you. We need to do something so these bright kids want to go 
into science, math, and engineering. Please help us.
    And I yield back.
    Chairman Brooks. Thank you, Mr. Bartlett.
    Next we have Mr. Clarke of Michigan.
    Mr. Clarke. Thank you, Mr. Chair.
    You know, if the gentleman from Maryland would like, I 
could yield him some of my time.
    Mr. Bartlett. I hope that our panel would provide a very 
thoughtful recommendation, because this is really a very 
serious thing. We face a couple of really big challenges in our 
country. One is with energy, another is with our huge economic 
problems, our deficit, our debt, you know, but the solution out 
of both of these might be science, math, and engineering, might 
it not? Maybe you could bring some manufacturing back to this 
country. You know, every 12 hours we have another billion-
dollar trade deficit. That is only half, by the way, because 
about every six hours we have another billion-dollar budget 
deficit which increases our debt and, you know, we are here 
because we have been failing in this area. Our jobs have been 
going overseas. And so we really need to change. The culture in 
our country has got to be appreciated. You know, a culture gets 
what it appreciates. You know, I think of Rome and the 
gladiators, and I am concerned for our future.
    Thank you very much and help if you can.
    Mr. Clarke. In any event, I just learned a lot listening to 
the gentleman from Maryland, and one thing I would agree with 
you on is that I think we have got too many lawyers here in 
Congress. Either scientists or artists like me would be a great 
combination here. I have got to bite my tongue; I'm an artist 
that also has a law degree.
    Chairman Brooks. As an attorney, I think your time just 
expired.
    Mr. Clarke. Oh, my goodness. My apologies, Mr. Chair.
    This question is more for Mr. Morrella because he actually 
reads it at the end of his oral testimony. You indicated that 
sometimes industry mentors may have difficulty working in the 
classroom and you stated that sometimes an industry mentor 
could be effective in the classroom if they take the role 
analogous to a coach where they may or may not need educational 
credentials in the classroom.
    When do you think it is appropriate for an industry mentor 
to get the credentials they need in order to be effective in 
the classroom and how would you compare that role with an 
industry mentor that works as a coach in the classroom and 
works as a coach effectively? Just so I can get the 
distinction, based on your experience, on when you need an 
educational credential to be effective in the classroom and 
when you don't.
    Mr. Morrella. Sure. That is a great question. There is a 
wide spectrum there too. It depends on what the goal of that 
mentor is going to be, and I would say when they absolutely 
need to get the credential and go through that process. 
Obviously if they are going to want to be a full-time educator 
and if they are going to want to be doing that on their own 
alone, if they are not working in conjunction with a teacher 
that is in the class or with an existing team or program. When 
I talked about coaching, and I think in the written testimony I 
had mentioned what I have seen happen a lot is, industry 
professionals who want to get in education and help educators 
or help work with students, the coach analogy is similar to 
sports. You see students in high schools who get to work with 
people who play professional football or basketball or 
baseball, and they come and they coach the teams after school. 
They don't need a credential. They get a stipend. They can work 
with the schools, with the students. They are not required to 
have a credential because they have got the expertise. I think 
that that is a possible solution to help mentors and engineers 
from companies come and work in a classroom and work with 
students, that maybe they don't need the full-time credential 
but what they can do is be on that kind of coaching level, get 
a stipend. The key is to work with a teacher, with a teacher 
that is in the classroom.
    It is two totally different worlds, and coming from the 
corporate world, that environment, and going into a classroom, 
an analogy I use is kind of like a ship, right? The corporate 
world is like a cruise ship and you have got a lot of employees 
working on different decks trying to make sure that everything 
works in the best way possible in a profitable way to get 
everybody from point A to B. Teaching is more like being on a 
pirate ship, you know, and it is leaking. Your goal is to get 
the students to land without the ship sinking and hopefully 
without a mutiny, and what I have seen happen with some 
professionals that come into the classroom is, they are not 
prepared for that environment, for the, you know, without the 
hierarchy and the structure, and it really does take--I think a 
couple of panelists mentioned, it takes patience, it takes 
experience, it takes resolve, it takes getting involved with 
the students and listening, and I think it is important that 
they work with experienced teachers and they go through the 
process to kind of learn what it takes to teach, and if they 
want to pursue that full time, then I think that is when, to 
answer your question, they need to then pursue a credential so 
they can do it full time, but if they don't want to do it full 
time, I think we can find ways that they can work in the 
classroom without needing a credential.
    Mr. Clarke. Thank you, Mr. Morrella.
    I yield back my time.
    Chairman Brooks. The Chair next recognizes Ms. Sewell from 
the great State of Alabama, and she is also an attorney. If you 
need any additional rebuttal time, please let me know.
    Ms. Sewell. Thank you, Mr. Chairman.
    First I would like to thank and welcome all of our 
panelists. I especially want to say how delighted I am to see a 
fellow Alabamian in Mrs. Sutton, and I actually have a question 
for you.
    Looking back on your educational and professional 
experience, what do you think was the most, has been the most 
beneficial experience that you have had in relating that 
experience to the classroom and making that transition? I know 
that the Hopkins program that you were a part of, are there 
recommendations that you can give to other programs about how 
they can better educate professionals to make that transition 
into the classroom?
    Mrs. Sutton. Yes. My experience was unique in that I did 
study with Johns Hopkins and then moved to Alabama where I had 
my student teaching experience, and the Johns Hopkins programs 
that I selected was a part-time program at night and it was 
staffed by Montgomery County schools educators and 
administrators so they were working--a lot of the people there 
were working in the schools every day and then coming to teach 
us at night, and they really helped prepare us for the 
environment that we were going to be entering. For example, at 
the time Montgomery County had over 140 languages being spoken 
in the school system. I didn't even know there were 140 
languages.
    So just that awareness of, you know, what my students were 
going to be like when I got there was really, really important. 
And yes, they recognized what we had but they also knew that 
without having strategies--and there was very focused, targeted 
instruction to help us build on what we already had but how to 
change up so that we could present material to children in a 
way that they would be able to grasp it and to reinforce and to 
bring it back in different ways because you do have to tell 
them sometimes 20 times or more before it does sink in. I mean, 
that is just part of what it takes to be a teacher, to be 
creative enough and think of enough different applications for 
what you are trying to deliver that they are exposed to it over 
and over again so that they really truly understand and then 
can begin to apply it themselves.
    Ms. Sewell. You know, I am really interested in--and all 
the panelists, anyone can answer this question. I am very 
interested in scaling these kinds of programs, mentorship 
programs, transition programs, to rural areas of America. I 
know, Ms. Sutton, you had the benefit of being in Huntsville, 
and Huntsville is a science and tech hub for the State of 
Alabama. I represent a lot of the rural counties in Alabama, 
and you know, our kids need to be sparked and interested as 
well. What recommendations would you all make on how to scale 
these effective programs to rural Alabama and rural America?
    Ms. Willner. If I can, one idea is that at IBM we have an 
online mentoring program and we have about 6,500 IBMers who are 
mentoring students, and something that is unique about it is 
that we adopt a class so every child in that class receives a 
mentor, and then we work with the teachers so it is actually 
clued into supporting their classroom work. They meet the--the 
students meet their mentor at the beginning. They have a big 
kickoff and then we have a pizza party at the end. But in 
between it is online mentoring, and that does help with--I 
mean, we still need infrastructure in the schools but there are 
a lot of reasons why we want to bring technology infrastructure 
to the rural schools, and that way they can have mentors. They 
can also have access to a lot of the experiences of the world. 
So that is one thing that we might want to consider.
    Ms. Sewell. Dr. Jones, how could I encourage some of the 
big corporations like Abbott and others that may have a 
satellite office in Huntsville, Alabama, to come and be 
interested in rural Alabama and rural areas?
    Dr. Jones. Well, first I think we would have to look at 
location, but one thing that, if we can use an example, is our 
Abbott Family Science program and Operation Discovery is that 
the whole objective is this informal out-of-school setting, 
okay, to encourage and spark that interest in the students. 
When we talk about STEM education, there is actually new, 
published information that details that it is not taking the 
math or science courses all the time but it is doing other 
things to spark the education or almost inspiration of the 
student.
    We actually have three goals that we have focused on with 
our work in science education, and one of them is this engaging 
the student and the families, okay, that connection as well as 
the teachers and general science exploration, and that is what 
we hope that our programs can do, science exploration. And the 
second, actually, if I may go on, is encouraging the young 
people to be more proficient in science and that attracts more 
scientists to the field, okay. And then, lastly, it is also 
building these partnerships I talked about in my testimony, the 
public-private partnerships, so if we can continue that and 
take it to the next level, I think we can tap into some of the 
communities that you speak of.
    Ms. Sewell. Thank you. I want to encourage all of our 
panelists to really be forward-thinking on how to increase 
participation as well as how to scale that which has worked in 
other areas to rural America as well as to underserved 
communities. Thank you very much.
    Chairman Brooks. Thank you, Ms. Sewell, for your insight 
and questions.
    Next, the Chair recognizes Mr. Sarbanes of Maryland for 
five minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman. I appreciate it. 
Thank you to you all for being here.
    This is a really interesting topic. It is something I was 
involved with quite a bit before I got here. I worked with 
Leadership Maryland, which is a group of business and other 
leaders in our State, for a number of years in designing a 
career-changer program. In fact, they did kind of a summit at 
one point on ways to impact education, and the piece that came 
out of it, and was sustained the longest, was this idea of 
career changers coming out of other walks of life and into 
teaching and all the challenges that that can present, 
obviously. And you have spoken, I know, to the issues of how 
you give credit for life and work experience that, you know, 
may not fit into the typical credentialing process and how you 
can effect a smooth transition for people who actually want to 
change careers. But you have also spoken to all the other 
permutations of partnership that can be developed to help bring 
to bear in the classrooms around STEM education the experience 
and expertise and, frankly, life perspective that a lot of 
these professionals have, even without them necessarily making 
a full transition.
    There is a partnership now between the National Commission 
on Teaching and America's Future and NASA Goddard Space Flight 
Center to create this NASA 21st Learning Studio model, and 
there are a couple of schools in my district that are 
benefiting from this partnership, which basically brings 
Goddard professionals and scientists into these team project 
learning opportunities in the schools. I went to visit a couple 
of them and, you know, it has brought the school to life really 
when it comes to STEM education. The kids are wowed by it. The 
teachers in the schools are also benefiting tremendously from 
this partnership, and it turns out the scientists themselves 
are benefiting because they are discovering they are needing to 
think about their subject matter in different ways and teach 
what they know. They are then going back to Goddard, and it is 
having a benefit for them in terms of how they interact and 
team with their own colleagues there. So it is important to 
note that the benefits of this kind of partnering really cut 
across all of the participants. So I think there are a lot of 
exciting opportunities.
    I wanted to ask you, Dr. Beeth, because you have this 
innovation program, the act! program, which is helping people 
make this transition, how much progress is being made? I looked 
at the numbers but as again, say, the shortage of STEM 
teachers, particularly in high schools that may exist in that 
State, in your State, you know, how much progress are you 
making sort of filling the shortages or addressing in a 
significant way the shortages overall with these programs?
    Dr. Beeth. I think that is a good question and an 
interesting question. Because of the nature of this program 
with people being place-bound, we fill shortages locally, but 
we are not reaching out to all parts of the State to fill the 
shortages in some of the rural areas, in some of the high-need 
urban areas in the State.
    Mr. Sarbanes. And then I wanted to ask Ms. Willner, I know 
IBM has had a really innovative approach to this for a long 
time. Maybe you could speak to, is there a process by which as 
people are approaching retirement within IBM that they get 
surveyed or canvassed for their potential interest in this, and 
then you are starting to provide support and partner with 
credentialing institutions, you know, in terms of the pedagogy 
that they may need as a threshold matter before they actually 
hit retirement? So you are kind of getting this cohort ready to 
go out and do the partnership but before they actually retire?
    Ms. Willner. That is exactly right, Congressman. So we want 
to make sure that our employees have a smooth transition and 
are able to continue to have a salary. They are working at IBM 
while they are getting their coursework completed. And then as 
I mentioned, we actually have a special leave of absence. They 
can hold onto their benefits. Because one of the things we hear 
about career changers is that there is that gap: I leave one 
job and then before I get placed as a teacher, you know, I 
still need health insurance and I still need to hold things 
together. So we cover those bridges for them.
    And we want to make sure that they have been in the 
classroom and had real classroom experience. I think some of my 
colleagues talked about math and science expertise is necessary 
but it is not sufficient, and you can't just throw somebody 
into a classroom. They really need that practice. So this leave 
of absence that we have constructed allows them to do that so 
they are really prepared. We want them to start teaching day 
one, not--you know, because those kids, they only get one time 
through, you know, eighth grade.
    Mr. Sarbanes. Right. That is a terrific part of your 
program, and my time is up, but I just did want to make the 
point that it is equally important that the schools where these 
career changers are placed are themselves prepared and ready to 
accommodate and are willing participants in this kind of a 
partnership or else it won't work from that standpoint either, 
and I yield back my time.
    Chairman Brooks. Thank you, Mr. Sarbanes.
    Next, the Chair recognizes Mr. Tonko of New York for five 
minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    Dr. Beeth, we often focus on the importance of STEM teacher 
recruitment and preparation, but we also know that STEM teacher 
retention can be a huge problem. So many of our STEM teachers 
leave the teaching field, I am told, in the first five years, 
often citing a lack of professional support and resources. 
Recognizing that the act! program is fairly young, have you 
made any efforts to track the teachers that participate in the 
program and use that tracking to see, you know, where they end 
up and whether or not they persist to serve as STEM teachers?
    Dr. Beeth. The first person who completed the program is in 
his fourth year of teaching, so we are still a fairly young 
kind of program to have any sort of longitudinal data, but I 
had indicated in the previous testimony that all of the people 
who have completed the program are teaching or substitute 
teaching and seeking jobs. They are all interested in still 
being in the teaching field.
    Mr. Tonko. Ms. Willner, I heard your exchange with 
Representative Sarbanes. Can you develop for me a little more 
the interest or the thinking of IBM when it decided to join the 
Change the Equation Network, and what value you see in 
partnering with the Federal Government on STEM education?
    Ms. Willner. Great. Thank you, Congressman. For us, this is 
actually a business decision, and I think my colleague from 
Abbott would say the same thing, that we know that the future 
of IBM is absolutely connected to having a strong economy, and 
that means we need, you know, we need to have a citizenry that 
is well prepared and we particularly need engineers, 
scientists, mathematicians who are going to, you know, keep us 
moving forward in the 21st century who are going to be great 
IBM employees, who are going to be great employees for our 
customers, and in every way are going to contribute to that 
economy. So for us, it is a financial imperative and a long-
term investment.
    We also see--it is very interesting, when we announced 
Transition to Teaching, I think I mentioned that we have had a 
little more than 120 participants at IBM. But our CEO received 
literally thousands of emails when we announced it, not because 
everybody wanted to become a teacher tomorrow but because they 
said, ``I love working for a company that wants to do this.'' 
That is a great thing for IBM to do to connect with our 
schools. So I think that you see that there is a very shared 
interest in this from our employees and so that is part of it 
as well. Our employees love to volunteer. They love being part 
of Change the Equation and learning best practices. They want 
to make a difference. For an employee at IBM going to a career 
day and talking about being an engineer, the best thing they 
could do. They love that, and they love that we support them 
and make it easy.
    Mr. Tonko. Thank you.
    Can you also cite for me--and this question I would toss 
out to the entire panel. It seems as though elementary settings 
are important if not for a number of reasons, prime amongst 
them, many adults fear science and math, so I think sometimes 
that is just an--it is sort of a taught dynamic so that when 
you are really young in the elementary settings, somehow you 
pick up on this message that you have to fear science and math. 
Can you cite for me any success stories or great models that 
are utilized in the elementary setting? It seems when we get to 
the middle and high school years, we may address the problem 
then, but if we start in the elementary setting and get them 
into science and math, then we can have hope that they will 
continue to grow through the education spiral. So, any 
elementary formats or programs that you would want to cite that 
are really a good working tool?
    Dr. Jones. Well, currently, Abbott Family Science is 
focused on the elementary population, and the way that that 
works is that we know that there is data to support that 
parents' involvement in their children's scientific 
understanding and engagement is critical, and that is what is 
it based on, and what the Abbott volunteers and scientists just 
truly do is, we serve as facilitators. But again, we are able 
to take scientific principles, scientific concepts and truly 
apply them to what we do as a company as far as our innovation, 
our discovery, and so I think that parents and children are 
able to make that link and leap, and actually we have some 
metrics that we are gathering that have shown that the 
engagement that occurs between parent and children as a family 
afterwards increases from like 39 percent to 84 percent. So 
they are going away from this and realizing that oh, wait, I 
can engage with my family on a regular basis with science.
    Mr. Tonko. Does anyone else have--Dr. Beeth.
    Dr. Beeth. I do. This is a school-based program, but in 
1992 there was a teacher who worked for a summer in a plant 
pathology lab, a fifth grade teacher who really didn't want to 
know about plant pathology but wanted to know how scientists 
tell their stories. And so he went back to his classroom and 
started a program called I Wonder. In 1992, they published the 
first journal I Wonder, the journal for elementary school 
scientists. It is still in publication today and it now has 
expanded to incorporate a number of different schools. Many of 
the articles that the students write in this journal have more 
to do with engineering than they do with basic science, but it 
seems appropriate, and also with the common core standards that 
are coming it might be a nice model. The teachers write an 
afterword in this journal every year as to what they learned 
about teaching their students this science. I have a proposal 
in right now to go back and now take a retrospective look at 
the children who went through this program and see how it 
impacted the number of science courses they took and what kinds 
of careers that they might be engaged in.
    Mr. Tonko. Wonderful.
    Mr. Morrella. Is there time for one more? Your question 
actually comes back to something that Congressman Bartlett also 
said earlier specific to elementary school levels. We work with 
a foundation based in Omaha, Nebraska, called the Create 
Foundation, and they do a junior-level robotics after-school 
program for schools in the Omaha area, and what I would, to 
answer your question, I would say that at the elementary school 
level, it is about interest and demand, not about what they 
actually need to learn in science and technology and 
engineering. You need to get the kids excited about it, and it 
is a culture thing, and an observation I will share from my 
experience teaching is, I think people lose sight of the fact 
that as kids grow up, especially in elementary school, and I 
feel guilty right now just thinking about my kids, parents 
always show up to cheer for them at a soccer game, a baseball 
game, you know, basketball, a walkathon, whatever it may be. 
Students never get cheered, they never get celebrated for 
getting the right answer, right? Their parents, the people they 
are trying to impress, never get to see them do well in school. 
Parents aren't there in the classroom. They don't see them get 
100 percent on a spelling test and get to clap for them, but 
they will clap for them when they hit a ball with a bat.
    What these programs can do in elementary school, if you can 
do these hands-on programs as they treat robotics and other 
programs--it is not just about robotics--to the kids, it is a 
sport. To the kids, it is an opportunity. Their parents get to 
come to these competitions that happen on Saturdays, just like 
sports, and when they see their parents applauding them and the 
pride on the parents' faces, don't lose sight of the impact 
that makes on an 8-, 9-, 10-, 11-year-old child. That is what 
to them tells them, hey, this is something worth doing when I 
get to middle school, when I get to high school, that now they 
are not afraid of science classes and computer classes and 
technology classes. They are actually taught those are cool, 
those are important, and it makes a difference.
    So anything that can be done to help elementary schools get 
kids involved in science programs that parents can actually 
support and come and witness I would say is going to make a 
huge difference.
    Mr. Tonko. Thank you very much.
    Thank you, Mr. Chair.
    Chairman Brooks. Thank you, Mr. Tonko.
    I am going to do something a little bit different here, and 
I mentioned it to some of you before the hearing began, and I 
don't want you to feel obligated to take advantage of this 
opportunity but if you feel that it would be beneficial for the 
record, insightful as we deliberate public policy issues 
related to your comments, then feel free, if there are any 
comments by a Congressman or questions that might have been 
directed to one of your other colleagues that you felt you had 
some insight that you would like to share but because it wasn't 
directed at you, you were not able to, or any comments made by 
your fellow witnesses that you would like to add to at this 
point, please feel free to add that insight at this time. Dr. 
Beeth, do you have anything else? And again, I understand it is 
a broad question. Normally if I would focus it, people would 
immediately jump on it, but this is a broad question, and don't 
feel obligated, but if you have anything you would like to add, 
please do so at this time.
    Dr. Beeth. Well, just briefly, with what I see amongst a 
lot of the discussion here today is the need to get STEM 
professionals more involved in all the different types of 
levels, whether it is being mentors in classroom, being 
credentialed, providing robotics competitions and so on, and it 
makes me think that something in the preparation of those STEM 
individuals or in their professional training needs to help 
them think about working in the K-12 world.
    Chairman Brooks. Thank you, Dr. Beeth.
    Mrs. Sutton.
    Mrs. Sutton. Yes. I just wanted to take one minute to make 
you aware that our school is also fielding a couple 
CyberPatriot teams, which is working in cybersecurity, and one 
of the reasons I am really excited about this is where the 
robotics or some of the other hands-on projects you can see 
what is happening because it is very physical. Sometimes when 
you are working in information technology, there is not a lot 
to look at. You know, it is just sitting there. But with the 
CyberPatriot competition, they have goals, they have 
challenges, they have--they are competing against other schools 
and they are being monitored and scored, and we have an SDIC 
mentor that is working with my cybersecurity class and we do 
actually have, I think it is 12 students that are actively part 
of these teams and are preparing, and to me, it is a real 
matter of national security that these kids get excited, and a 
lot of these kids didn't even know that there were jobs where 
they could, you know, basically get paid to hack. You know, 
they can be penetration testers, they can evaluate systems, and 
when they get to see that they can have this much fun and get 
paid for it, they are very excited about it. So I teach a class 
and they are all juniors and seniors, and I have a couple that 
now are looking for ways to further their education so they can 
do this for a living, and that makes me feel like we are 
accomplishing something.
    Chairman Brooks. I sure hope they are being taught to hack 
the right things.
    Mrs. Sutton. Ethnically, yes. Yes, ethically.
    Chairman Brooks. Just as an aside, I think it was Mr. 
Morrella who commented on this, at Grissom High School in 
Huntsville, we have a lot of academic teams. It might be math, 
it might be science, it might be debate, any number of things, 
and believe it or not, we actually have applause from the 
parents at some of the contests that are involved with that.
    Mrs. Sutton. Yeah, and we actually have tryouts, and not 
everybody makes it. I mean, it is high status to make some of 
our teams.
    Chairman Brooks. It is a remarkable school.
    Ms. Willner, anything else you would like to add?
    Ms. Willner. Just two quick points. And first of all, at 
IBM we do have an ethnical hacking unit, so send them over.
    I just--I want to say two last things. One is to say that 
this is partnership. You know, professionals from private 
industry bring an enormous amount but they do need the 
training, the continued training in classroom practices. We 
need the schools of education to get involved. We need their 
training as they are becoming STEM professionals to get 
involved. We need the schools' involvement, the State and the 
federal departments of education. So this really is a 
partnership. It is nothing that--the private sector can't fix 
this, but we can certainly bring something very important to 
the table and we have to do it with a sense of humility working 
with all of these partners.
    And the last thing I would just share with you is something 
that the principal where our first Transition to Teaching 
graduate landed said to me afterwards. ``You know, what is so 
wonderful about having Jennifer at this school is that the 
minute she walks into the classroom and she tells these young 
people that she was an executive at IBM, they don't know what 
that really means but they have heard of IBM and they know she 
had this great job and now she chose them. And that changes 
their lives from there going forward and we just want to keep 
doing more of that.''
    Chairman Brooks. Thank you, Ms. Willner.
    Mr. Morrella, anything to add?
    Mr. Morrella. Yeah. I had mentioned earlier that whole 
spectrum, and I guess what I want to also talk about is, it is 
great if these industry professionals can go into teaching full 
time. If they retire and they want to do that, we need more 
STEM-related qualified teachers. But I think it is really 
important to also recognize that huge potential of the bridge 
of the people who don't need to go into teaching full time but 
can volunteer and can do it part time. It could be two hours a 
week, it could be two hours a month. And here is why I think 
that is really important. There is a really big difference 
between being a mentor and a teacher, and when you are a 
teacher, just like anybody who has kids knows, once you get to 
middle school and high school, they start to tune you out just 
like they tune their parents out, right? They think you have to 
be there, you are part of the system.
    When a mentor comes in, not being a teacher actually helps 
them get listened to, and I mean that. It is important. Once 
that mentor takes on the title of a teacher, it is not as 
powerful to the students because when you are a mentor, you 
come into the classroom and they don't think you have to be 
there, and they look at your career and your profession and 
your title, and to them, that shows them, hey, that is a real 
position, that is a real avenue that you can pursue. So it is a 
really powerful tool and it helps the teachers, so when mentors 
come into the classroom and work with a teacher, it actually 
reinforces what the teacher has been telling the students. It 
is actually a tool for the teacher to be able to say hey, look, 
I am not just telling you this, it actually does get applied in 
real life, there are careers, there are people who do this 
stuff.
    So it is really powerful and, you know, I think back to 
mentors and really impressive people I have met over the years 
and observing students interacting with; a Woody Flowers from 
MIT, who really is the father of educational competitive 
robotics as it exists today; Dave Lavery from NASA; the three 
engineers that we met at NASA Ames; Mark Leon, Steve 
Kyramarios, Bob Holmes, the students getting to work with them 
was incredible because they looked at them kind of in awe as--
we keep talking about the sports culture. They were the sports 
stars. They were the rock stars and they were giving their time 
to come into the classroom, and the kids wanted to soak up 
whatever those mentors were offering like a sponge, and I think 
it is valuable that we recognize even part time makes a huge 
difference because they are role models.
    Chairman Brooks. Dr. Jones, any insight you wish to share?
    Dr. Jones. I just would like, I think, on the behalf of 
Abbott, that we just as a company acknowledge the challenge 
that faces us as a Nation regarding needing STEM education and 
STEM-educated individuals, and so what we have committed to do 
as a company is to leverage off of our strength, which is 
science, and creating the programs that we discussed today in 
my testimony and using them to support our communities so that 
we will, in the next 5, 10, 20 years, have more young people 
with strong education in science, technology, education and 
math.
    Chairman Brooks. Well, thank you, Dr. Beeth, Mrs. Sutton, 
Ms. Willner, Mr. Morrella, and Dr. Jones, for the insight that 
you have shared with us today concerning STEM. It is now up to 
Congress to take that insight and implement sound public 
policy.
    Having said that, the Members of the Subcommittee may have 
additional questions for the witnesses, and we will ask you to 
respond to those in writing should any be forthcoming. The 
record will remain open for two weeks for additional comments 
from Members, and the witnesses are excused and this hearing is 
adjourned.
    [Whereupon, at 11:30 a.m., the Subcommittee was adjourned.]


                                Appendix

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Dr. Michael Beeth, Professor,
Department of Curriculum and Instruction,
University of Wisconsin Oshkosh

 Questions Submitted by Subcommittee Chairman Mo Brooks

Q1.  In your testimony, you noted that the act! program is unique in 
that it recognizes academic preparation and life experience. It seems 
like it would be essential for a certification program to recognize 
these factors for those looking to transition from industry to the 
classroom. Why is this unique to the act! program? Why aren't more 
certification or alternative certification programs recognizing this? 
How would you recommend other programs consider recognizing these 
factors?

A1.  The act! program is based on meeting statutory requirements for a 
teaching license rather than meeting degree, major, and minor 
requirements established by the university. We have authorization from 
the State to award credit for prior learning if that learning meets a 
statutory requirement. The act! program is an alternative path to 
teacher licensure in that our students can meet state requirements by 
either taking a credit-bearing class or presenting us with evidence 
that they have the equivalent knowledge through their life experience. 
This is unique to the act! program in that most teacher licensure 
programs require their students to complete a set list of credit-
bearing courses that will results in a major or minor for a university 
degree and a recommendation for teacher licensure.
    In many cases, an act! student can meet a statutory requirement in 
less time and at less cost than enrolling in a university course. 
Awarding credit for prior learning allows us to formally recognize the 
entire prior learning an individual brings with them at the time they 
enter the act! program. Thus we can reduce the number of additional 
courses, time, and tuition cost for an individual to complete this 
alternative licensure program. In effect, we maximize the starting 
point at the time of admission and then fill in the remaining statutory 
requirements with university-based course work.
    Colleges and universities are in the business of selling their 
degrees first. Many colleges and universities embed their teacher 
licensure in an undergraduate or graduate degree programs. Students 
only receive a teaching licensure after they meet all requirements for 
a degree. On the other hand, act! uses the authority to recommend 
individuals for teaching licenses granted by the State of Wisconsin to 
prepare individuals who have documented knowledge and experiences that 
are equivalent to what traditional undergraduates receive.
    Encouraging other institutions to adopt missions similar to act! 
would be difficult. I would think that in some of the most high-need 
regions this might be easier, especially if a local business or 
industry were involved and if the teacher preparation coursework were 
embedded in the local schools. I think act! has been successful because 
it is responding to a regional need.

Q2.  What are the challenges with recruiting students from local 
employers? How vested are the employers in helping their employees 
achieve success in making a career transition? Do they share with you 
the value they see in your program, and if so, what do they say?

A2.  We have not done a survey of the past employers of our students. 
In general, area employers are warm to the fact that act! exists as an 
option for their employees, but they do not actively encouraging 
employees to consider careers as teachers. Based on anecdotal evidence 
only, employers of prospective employees may be mentioning the act! 
program as an option for their spouse or significant other during 
recruitment. When we have approached employers/human resource 
departments and work force development offices about our program, the 
most immediate question is: ``Are there any jobs in teaching right 
now?'' There does seem to be a misconception among the newest contacts 
we make with business and industry that degreed individuals should be 
able to step right into a teaching position with no training at all.

Q3.  What drove you to create and coordinate a program such as act!? 
How do you think it has impacted your surrounding schools and the 
students' successes? What advice would you offer other schools of 
education looking to establish alternative certification programs? What 
advice would you give to career switchers looking to transition to 
teaching?

A3.  I enjoy working with non-traditional students in teacher 
education. The act! program was an opportunity to continue this 
interest and to assist in the design and implementation of an 
alternative pathway that brings the expertise of STEM professionals 
into teaching. From the outset, act! received a lot of support from 
Chancellor Richard Wells and the deans of our campus partners, and at 
least tacit support from the business and industry in our region.
    We are still a young program with no solid evidence about our 
impacts on schools--our first program completer is in his fourth year 
of teaching, and two of our program completers were hired in the same 
school stating in August 2011. We are very interested to know more 
about how teachers who completed the act! program are impacting their 
students' learning, what they are choosing for their own professional 
development needs, and the kinds of leadership they are providing in 
their school. At this time, we just do not have a large enough sample 
of program completers to answer your question.
    My advice to schools of education thinking about starting an 
alternative program is to carefully survey the community about the 
number and kinds of degreed individuals who are interested in becoming 
teachers; then design a program that allows you to tap into those pools 
of individuals. Although Chinese teachers are in high demand in 
Wisconsin, it is unlikely we would have had a pool of individuals in 
our region with degrees in Chinese who could enter that program.
    My advice to non-traditional adults wishing to become teachers--
first, visit several schools to see what a day in the life of a student 
is like and to talk with some teachers who teach the subjects you are 
interested in teaching. Take the time to be sure you know what schools 
today are like, what kids today are like, and to get a sense of the 
depth and breadth of the curriculum you might teach. Second, find a 
licensure program that recognizes and awards credit for everything you 
know, and finally, request information about programs that uncouple 
teacher licensure from earning an additional degree from your State 
Department of Education.
Responses by Mrs. Christine Sutton, Secondary Math Teacher,
Virgil I. Grissom High School,
Huntsville City Schools, Alabama

Questions Submitted by Subcommittee Chairman Mo Brooks and Subcommittee 
                    Members

Q1.  Mathematics is a difficult subject for many students. Throughout 
your classroom experience, what have you found to be the greatest 
challenges facing students studying math and other STEM subjects, and 
why do you believe these challenges exist? What more can we do to 
prepare and inspire students to study these subjects and pursue STEM 
careers?

A1.  One of the greatest challenges that I face as a mathematics 
teacher is creating an environment which enables and encourages 
students to practice new skills to gain mastery. To be successful in 
math, and many other STEM subjects, students need to develop problem-
solving strategies, apply these strategies to a number of different 
types of problems, and experience success to build confidence.
    Many of the students that I teach become easily frustrated and stop 
working unless someone encourages them to continue. They are not able 
to come in for extra help before or after school because they ride a 
bus and cannot arrange alternate transportation. Finally, my students 
are involved in activities after school which limit the time they have 
available for independent work outside of school, and their parents are 
often unable to help them with their homework. Because they struggle in 
these classes, they don't enjoy them and are less likely to make them a 
priority or consider pursuing careers which require further study in 
these areas.
    I believe that students need to be exposed to a variety of STEM 
career options and given opportunities to find out if they have an 
interest or aptitude in these fields. Students are required to take 
fine arts electives to help them uncover gifts and passions. Similarly, 
students should be given opportunities to apply their math and science 
skills to solve relevant problems and create projects which allow them 
to experience different STEM professions on a small scale.
    Project Lead The Way (PLTW) is one example of a project-based 
curriculum, which is currently being used by more than 4,000 schools. 
PLTW courses emphasize innovation and real world problem solving to 
engage students on multiple levels and have been shown to significantly 
increase interest and abilities in STEM-related programs at the college 
level.
    Grissom High School hosts the Huntsville City School System's 
Academy of Applied Math and Science. The Academy currently offers five 
PLTW courses (Introduction to Engineering Design, Principles of 
Engineering, Digital Electronics, Principles of Biomedical Sciences, 
and Human Body Systems) and plans to offer three additional courses 
next year (Civil Engineering and Architecture, Aerospace Engineering, 
Biotechnical Engineering). Programs like PLTW can prepare and inspire 
students to study these subjects and pursue STEM careers.

Q2.  In your testimony, you noted the difficulty you had finding a 
certification program that acknowledged your previous course work. How 
important was this to your decision to make the transition to teaching? 
Why do you think more programs don't recognize factors like work 
experience? Was Johns Hopkins teacher education program unique in other 
ways, and what aspects of the program did you find most useful in your 
transition? Did you find that many of your classmates were able to 
benefit from these things as well?

A2.  When I made the decision to become an education professional, I 
learned that it was essential that I attend a teacher education program 
that was able to certify that I was highly qualified to teach 
mathematics. I would not have left industry to become a teacher if 
Johns Hopkins had not recognized my previous course work and experience 
and admitted me to their master's degree program. I believe more 
universities don't recognize factors like work experience because it is 
more difficult to assess knowledge than to follow a checklist of 
prerequisite courses. A passing score on the Praxis II level of 
examinations is an alternate way that teacher candidates can 
demonstrate their content knowledge.
    The Johns Hopkins program was also unique because it offered a 
part-time program which allowed me to begin my teacher education at 
night while I continued to work, enabling me to confirm that I had an 
understanding of the demands of a teaching career before I left 
industry. Also, many of the instructors for this program were active 
full-time educators and administrators from the Montgomery County, 
Maryland, School District who helped prepare career changers to succeed 
in a multi-lingual, inclusive classroom. Most of my fellow students in 
the program were other professionals transitioning to education (an 
architect, lawyers, engineers) who selected Johns Hopkins for similar 
reasons.

Q3.  It is my understanding that a significant factor in making the 
transition from industry to the classroom is the financial burden, from 
financing the certification programs and classes to the potentially 
significant pay cut that comes from teaching. What recommendations do 
you have for those looking to make a similar transition while 
attempting to mitigate the financial burdens?

A3.  Anyone considering making the transition from a STEM profession to 
teaching will probably experience a pay cut, and if they believe that 
the rewards they receive from working with students will be more 
valuable than money, then this won't be an impediment. However, the 
institution that they select for their certification program may be 
able to help them find grants or other tuition assistance. Johns 
Hopkins University encouraged me to apply for the State of Maryland's 
Christa McAuliffe Scholarship, since I was seeking certification in a 
critical shortage area, to receive tuition assistance in exchange for 
teaching three years in a Maryland public school. Other states may 
offer similar programs.
Responses by Ms. Robin Willner, Vice President,
Global Community Initiatives, Corporate Citizenship
and Corporate Affairs, IBM Corporation

Questions Submitted by Chairman Mo Brooks and Subcommitte Members


Q1.  As an organization, does IBM believe its role to create a 
``smarter education,'' as you testified, is to fulfill the company's 
need for skilled employees in the future? How would you explain to 
other companies the importance of programs such as IBM's Transition to 
Teaching so they too can help create a ``smarter education''? What are 
the incentives of this type of industry work?

A1.  Transition to Teaching and the other IBM initiatives are designed 
as long-term investments. While we work directly at the university 
level on immediate recruitment needs, we understand that the long-term 
health and growth of IBM depends on a robust pipeline of young people 
who have the STEM skills necessary to be productive citizens as well as 
successful employees at IBM as well as our customers, business 
partners, and suppliers. The value proposition for other companies is 
that we can improve the pipeline for employees, raise the general level 
of STEM ability and economic vitality of our communities. All of this 
will improve the economic outlook for participating companies while 
polishing their brand and image.

Q2.  What is the time commitment associated with IBM's various mentor 
programs? Please also expand on how your mentors serve not only 
students, but teachers as well.

A2.  IBM's MentorPlace program is an online initiative focused solely 
on students. IBM adopts a class and each student has his or her own 
mentor. The online activities are designed in coordination with the 
teacher to support the classroom curriculum. Students meet their mentor 
in person at a kickoff event and then at an end-of-year celebration. 
Throughout the year, the IBMers commit to at least one online exchange 
each week, requiring about a half-hour of their time. We also have many 
IBMers who volunteer to coach teams for computer, technology, and 
academic competitions.

Q3.  In your testimony, you acknowledge that the dent IBM is making 
with the Transition to Teaching program is small, although very 
important. You further acknowledge that if other large companies would 
invest in similar programs, the impact would be much larger. IBM 
participates in a number of industry coalitions. Is your Transition to 
Teaching program easily replicable, and does IBM actively promote it to 
industry colleagues? Are any of them adopting it or have a similar 
program in place?

A3.  We regularly share information on our education programs through 
our industry alliances, e.g., Business RoundTable, U.S. Chamber, 
Software Industry Association, Change The Equation, etc. Intel is one 
company that has initiated a similar program. We believe that over the 
next several years, we should be able to identify another 10 companies 
prepared to initiate similar programs.
Responses by Mr. Jason Morrella, President,
Robotics Education and Competition Foundation

Questions Submitted by Subcommittee Chairman Mo Brooks and Subcommittee 
                    Members

Q1.  Mathematics is a difficult subject for many students. Throughout 
your classroom experience, what have you found to be the greatest 
challenges facing students studying math and other STEM subjects, and 
why do you believe these challenges exist? Beyond our discussion today, 
what more can we do to prepare and inspire students to study these 
subjects and perhaps pursue STEM careers?

A1.  In my experience, I have noticed that the difficulty many students 
have with math is that the more complicated it gets, the less they find 
it relevant to their daily lives. If they don't feel it is relevant and 
can in some way be of value to them in daily use, then they don't have 
the incentive to put in the time or effort to truly learn and 
understand the particular concepts. That is where hands-on project-
based programs and activities such as robotics come into play as great 
educational tools. Designing, creating, and building physical things 
that actually work give students the ability to see how the math 
formulas and concepts they are being taught actually work in real life. 
These activities help them see why the math behind gear ratios is 
important, why the understanding the center of gravity is valuable to 
understand, and why various concepts in geometry, trigonometry, and 
calculus are important. When students see that knowing and 
understanding these math concepts can help them produce better results 
and higher-performing finished products, they have a new reason to 
focus on the lessons and gain that knowledge. Seeing how these concepts 
actually come into play all around them in their daily lives shows the 
students that what they are learning is relevant, important, and 
something they can learn and understand.

Q2.  You testify that the ``working relationship between the teacher 
and industry professional is critical.'' This certainly makes a lot of 
sense. How often does the mentor serve as a mentor to the teacher as 
well as to the student?

A2.  The time commitment for mentors in the various programs we work 
with varies. I have found that the most successful programs are those 
that are flexible enough that mentors can volunteer with whatever time 
they have available. Some volunteer for just a few hours or days, some 
show up weekly for months, some even participate year-round. The 
important thing is for mentors to contribute what they can and to be 
present/accessible to students--even if just for a short amount of 
time. If mentors feel too overwhelmed by time commitment expectations, 
it creates a more stressful atmosphere and lesser experience for the 
mentor and students. Typically, if mentors get involved in smaller and 
more manageable ways to begin with, they will gradually find more and 
more time to give as they see the results of their involvement and 
interaction with the students.
    It's also important to note that mentors don't only help students, 
they also help the teachers. Mentors give the teachers a real-life 
example to show the students that real people in real professions use 
the information being taught. Mentors help teachers show that 
information being taught is relevant and that rewarding/interesting 
careers are available to normal people who learn the subject material. 
I have found that mentors have the most impact when they work next to 
and with a full-time teacher; their efforts reinforce each other, they 
each help show the students why the knowledge and guidance of the other 
is important, and they can assist each other in asking leading 
questions and giving students more one-on-one time.

Q3.  What are the differences between mentoring in the classroom and 
mentoring outside of the classroom? Have any of your mentors 
transitioned into becoming full-time teachers after their experiences 
mentoring?

A3.  There are differences between mentoring in the classroom and 
outside of the classroom. Mentoring in the classroom naturally takes on 
a more traditional teacher/student framework, with mentors needing to 
adapt a little more to the class schedule and structure. Mentoring 
outside of the classroom can sometimes create a little more of a 
clubhouse type atmosphere. I'd compare the contrast almost to the 
difference between the working environments of a large, traditional, 
50-year-old established company to a new, young start-up company.
    My observation has been that the transition from mentoring to 
teaching full time can be much more successful if industry mentors 
first work side-by-side with an experienced teacher for a year or more 
instead of jumping into teaching alone right away. This gives them a 
runway to get up to speed, to learn the dynamics of working with youth 
as opposed to co-workers in an industry setting. It gives the mentor 
time to observe students, what they do and don't respond well to. It 
gives the mentor time to observe experienced teachers and learn 
techniques to communicate with the students. Working side-by-side with 
a teacher gives the mentor the opportunity to gain a comfort level with 
leading students in a classroom setting while also learning all the 
little but important things that are different in a school environment 
compared to a corporate environment (interacting with parents, 
administrators, budget constraints, etc.).
    My guidance to any mentor coming out of industry interested in 
teaching full time would be to always volunteer or work with an 
experienced teacher in a classroom for at least one full year first. 
Jumping into teaching in a ``cold turkey'' manner is risky in that it 
sets up the professional adult, and more importantly the students, for 
potential negative experiences while that adult ``learns'' how to 
teach. Whether it's in the classroom or out of the classroom, the 
experience a mentor gains by first working side-by-side with 
experienced teachers is invaluable to learn the ropes and gain the 
comfort level needed to become a successful full-time teacher.
Responses by Dr. Jennifer Jones, Principal Clinical Scientist,
Abbott Vascular

Questions Submitted by Subcommittee Chairman Mo Brooks

Q1.  What is the time commitment associated with the various Abbott 
mentor programs? Please also expand on how Abbott mentors serve not 
only students, but teachers as well.

A1.  The time commitments for the Abbott Science Education programs 
vary per program, but in general the commitment is as follows:

    <bullet>  3-5 hours of training/professional development

    <bullet>  5-10 hours of program delivery

    Abbott volunteers typically attend training and meet to prepare for 
the program delivery. They work closely with school administrators and 
teachers to develop a program that suits the needs of the school and 
region.
    In addition, the mentorship provided for ongoing programs such as 
the robotics and after-school programs requires a commitment from 
scientists for a 2-3 month period. These scientists provide expert 
guidance with science competition programs and after-school lab science 
programs.
    Whenever possible, teachers and school administrators participate 
in the same training and professional development. There they learn to 
deliver science inquiry experiences and techniques for engaging parents 
as well as students. Teachers also have shared feedback that they often 
take specific science modules from the program and apply them in a 
classroom setting.
    For elementary school teachers who often do not have significant 
training in science, this is particularly important. They learn from 
the Abbott Family Science program how to engage in ``process'' science 
with their students--encouraging active exploration and discovery in 
the classroom setting. For Operation Discovery, secondary school 
teachers are provided with authentic lab experiments that they can use 
to connect curriculum lessons on DNA, chemistry, and other scientific 
topics.

                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
